Peac e Corps
Office of Inspector General




                                   Office of Inspector                            Office
                                                                                  202.692.2900
                                                                                                       Hotline
                                                                                                     202.692.2915 800.233.5874
                                                                                  peacecorps.gov/OIG Online Contact Form
                                                                                  U                U   U              U




                                        General                                   OIG Reports
                                                                                  U         U        OIG@peacecorps.gov
                                                                                                       U                  U




To:                                  Aaron Williams, Director
                                     Carrie Hessler-Radelet, Deputy Director
                                     Stacy Rhodes, Chief of Staff/Chief of Operations
                                     Daljit Bains, Chief Compliance Officer

From:                                Kathy A. Buller, Inspector General

Date:                                June 20, 2012

Subject:                             Final Evaluation Report: Impacts of the Five-Year Rule on Operations of the
                                     Peace Corps (IG-12-05-E)

Transmitted for your information is our final report on the impacts of the five-year rule on
operations of the Peace Corps.

Management concurred with all 5 recommendations. In its response, management described
actions it intends to take to further analyze and address the issues that prompted each of our
recommendations. Management’s corrective actions are ongoing and as a result none of the 5
recommendations can be closed at this time. See Appendix F for OIG comments concerning
management’s response to the report’s recommendations. We wish to note that when we close
recommendations, we are not certifying that the agency has taken these actions, nor that we have
reviewed their effect. Certifying compliance and verifying effectiveness are management’s
responsibilities. However, when we feel it is warranted, we may conduct a follow-up review to
confirm that action has been taken and to evaluate the impact.

You may address questions regarding follow-up or documentation to Assistant Inspector General
for Evaluations Jim O’Keefe at 202.692.2904 or to Senior Evaluator Jerry Black at
202.692.2912.
Please accept our thanks for your cooperation and assistance.

cc:                           Elisa Montoya, White House Liaison/Senior Advisor to the Director
                              Bill Rubin, General Counsel
                              Esther Benjamin, Associate Director, Global Operations
                              Earl Yates, Associate Director, Office of Volunteer Recruitment and Selection
                              Edward Hobson, Associate Director, Safety and Security
                              Brenda Goodman, Deputy Associate Director, Volunteer Support
                              Garry Stanberry, Deputy Associate Director, Office of Management
                              Dick Day, Regional Director, Africa
                              Carlos Torres, Regional Director, IAP
                              Helen Lowman, Regional Director, EMA
Paul Weinberger, Director of Congressional Relations
Cathryn Thorup, Director, Strategic Information, Research and Planning
LaTasha Mason, Acting Director, Office of Human Resources Management
Lisa Bilder, Chief Acquisition Officer
Joseph Hepp, Chief Financial Officer
Dorine Andrews, Chief Information Officer
Barry Simon, Director, Office of Medical Services
Cynthia McVay, Director of Innovation
        Peace Corps
        Office of Inspector General




             Final Evaluation Report:
Impacts of the Five-Year Rule on Operations of the
                   Peace Corps
                    IG-12-05-E




                                          June 2012
                                        EXECUTIVE SUMMARY

Overview
The Office of Inspector General (OIG) conducted an evaluation of the impacts of the ‘five-year
rule’ (FYR) on the operations of the Peace Corps, both domestically and in the field, including
the cost implications of the FYR for the agency. The FYR became law in August of 1965 when
an amendment to section 7(a) of the Peace Corps Act brought all U.S. direct hire (USDH)
employees, foreign and domestic, under the same personnel system, limited their appointments
to a maximum of five years, and gave the Director limited authority to personally approve
extensions of not more than one year. 1 The 1965 amendment also permitted the agency to re-hire
former USDH employees only after the expiration of a waiting period equal to the amount of
time they had worked for the Peace Corps in their preceding tour (the “in-out” rule). In passing
the FYR, Congress intended to “permit a constant inflow of new blood and ideas,” to give the
agency “administrative flexibility which is not possible under the restrictions of the civil service
system,” and to make sure that the agency’s staff “not be organized on a career basis. 2”

The FYR is particular to the Peace Corps, making it difficult to compare the Peace Corps’
personnel system, or the manner in which the agency implements the FYR, to other federal
agencies or private organizations. The multiple intended purposes of the FYR have not always
been stated in quantifiable or measurable terms. Further, the abundance of staff opinions
concerning the FYR’s impacts on the Peace Corps, combined with the lack of measurable criteria
against which to assess the effectiveness of the FYR over the past 45 years, has complicated this
evaluation.

Results in Brief
Our report identified ways in which the Peace Corps has used the FYR to accomplish what it was
designed to achieve, specifically:

    •    Peace Corps’ staff asserted that the FYR results in a mission-driven, energetic,
         and optimistic workforce attracted to the Peace Corps in spite of the time-limited
         appointment.

    •    The high rate of staff turnover 3 driven by the FYR has allowed the agency to hire
         extensively from the returned Peace Corps Volunteer (RPCV) population--one of
         the stated goals behind the establishment of the FYR. Just over 50 percent of all
         USDHs employed by Peace Corps from 2000 to 2010 were RPCVs and the Peace

1
  To Amend Further the Peace Corps Act, Public Law 89-134, section 2054, 75 Stat. 612 (August 24, 1965)
2
  S. Rep. No. 267, at 6 (1965) and Conf. Rep. No. 728, at 2 (1965), U.S.C.C.A.N. 2768, 2775.
3
  Turnover in this report is the rate at which employees separated (sometimes referred to as the “separation” or
“attrition” rate) from the agency over a specific period of time, usually a year. ‘Turnover’ as used in this report
represents the number of full-time USDH employees subject to the FYR (excluding interns) who left the Peace
Corps as a percentage of the average number of direct hire employees over the same period. For example, if 200
employees left in 2010, and the average number of employees in 2010 was 800, the turnover rate would be 25
percent.

Final Evaluation Report: Impacts of the Five-Year Rule                                                                i
       Corps has hired RPCVs throughout its history.

   •   The agency has employed RPCVs in a wide range of functions where Volunteer
       experience is an important qualifying factor and has employed them in leadership
       positions, particularly at overseas posts where almost 80 percent of all USDH
       staff from 2000 to 2010 has been RPCVs. Offices employing lower percentages
       of RPCVs are those where Volunteer experience is less critical than other
       qualifying factors.

   •   The intent of the FYR to prevent Peace Corps’ employees from making life-long
       careers at the agency has also been met, with rare exceptions. Just one percent of
       USDH employees worked for Peace Corps from 2000 to 2010 without being
       subject to the FYR.

However, the FYR has created its own unique problems as well as exacerbated common
management challenges. For instance, it has:

   •   Accelerated the annual pace of employee turnover well above the agency’s goal
       of 20 percent. Turnover has been between 25 percent and 38 percent for all years
       we have been able to directly calculate or research through records. Peace Corps’
       turnover rate is approximately quadruple that of the rest of the federal
       government.

   •   Contributed to an abbreviated average tenure of USDH employees throughout the
       agency, well short of five years. Average tenure of direct hires over the past 10
       years has been just three years. Abbreviated employee tenure and accelerated
       turnover have compromised the agency’s institutional memory and exacerbated a
       range of other management challenges.

   •   Made it very difficult for the Peace Corps to manage its personnel system in
       keeping with federal standards for human capital management and merit system
       principles. Accelerated employee turnover and abbreviated employee tenure have
       undermined the agency’s ability or weakened its incentives to: retain employees
       on the basis of their performance; plan for their eventual succession; ensure
       continuity of needed skills and abilities; provide training and education to
       improve performance; and deploy its workforce efficiently.

   •   Impeded, rather than facilitated, innovation at the Peace Corps. Staff reported that
       the accelerated pace of employee turnover, short average tenure, and insufficient
       institutional memory have conspired against the agency’s efforts to identify,
       develop, test, and successfully implement innovative ideas.

   •   Compromised the agency’s ability to attract and retain highly qualified personnel
       to perform core contracting, financial management, information technology,
       human resources management, and medical support functions. The rationale for
       the FYR appears less relevant for offices charged with supporting the agency’s

Final Evaluation Report: Impacts of the Five-Year Rule                                        ii
         infrastructure, performing compliance-related functions, or ensuring a high
         quality Volunteer health care program.

    •    Exacerbated the already difficult challenge of managing the frequent transitions of
         overseas USDH personnel. Despite the agency’s efforts to minimize vacancies in
         key direct hire positions overseas, over the past 10 years there have been more
         than 180 vacancies lasting at least 30 days. Staff reported that direct hire
         vacancies overseas had negative impacts on staff workload and morale, Volunteer
         support, programming and training, and other areas.

    •    Weakened the agency’s culture of performance management. Although the 30-
         month tour has allowed managers to easily separate under-performing employees
         at their end-of-tour dates, staff reported that the 30-month tour has also allowed
         supervisors to avoid the unpleasant and time-consuming task of confronting and
         managing under-performing employees during their service.

    •    Not led to RPCVs taking leadership positions throughout the agency to the extent
         originally envisioned by the architects of the FYR, despite the fact that the agency
         has hired extensively from the RPCV population. Based on data from 2000 to
         2010, only 24 percent of the agency’s senior staff positions have been filled by
         RPCVs.

    •    Created a disincentive for the agency to invest in staff development and
         undermined the agency’s ability to develop and promote the talent it has.

    •    Ironically, led to inflexibility in the agency’s personnel system that has
         compromised the potential of the original ‘in-up-out’ idea to promote high-
         achieving staff up through the ranks over a longer period of eight to ten years.

    •    Increased costs of managing personnel turnover and contributed to an inefficient
         use of the agency’s workforce. For the five-year period from 2005 through 2009,
         we estimated that the FYR contributed between $12.6 million and $15.5 million
         out of $20.7 million in turnover management costs. 4

Recommendations
While there are both benefits and challenges for agency operations under the FYR, our report
articulates a clear need for its comprehensive examination and for action to address the
constraints and problems the FYR presents. To address the negative effects of excessive
employee turnover and brief employee tenure on the operations of the Peace Corps, we
recommend:




4
 This estimate did not take into account costs that were more difficult to quantify, including: the loss of expertise
when high-performing staff appointments ended; reductions in productivity; or gaps in institutional memory and
knowledge.

Final Evaluation Report: Impacts of the Five-Year Rule                                                                  iii
   1. That the Director carry out the necessary reforms to the FYR, including seeking
      legislative remedies if required, to reduce the rate of employee turnover and increase the
      average length of employment of the agency’s direct hire employees.

   2. That the Director identify which functions should be subject to periodic turnover to meet
      the needs of the agency, and implement a process to manage turnover so that the agency
      retains qualified personnel on the basis of merit and performance.

   3. That the Director identify the agency’s core business functions and positions that
      currently suffer from frequent staff turnover and lack of continuity, and determine and
      implement a process for acquiring and retaining qualified personnel to perform those
      functions on the basis of merit and performance.

   4. That the Associate Director for Management lead improvements in the agency’s
      approach to performance management by raising expectations to actively address
      employee performance issues and by providing supervisors with the training and support
      to correct inadequate performance and separate employees who do not improve.

   5. That the Associate Director for Management put in place more robust processes and
      systems to gather and analyze data on the causes of unwanted, early employee
      resignations, and develop data-driven solutions to curb the pace at which employees
      resign early.




Final Evaluation Report: Impacts of the Five-Year Rule                                             iv
                                                  TABLE OF CONTENTS

EXECUTIVE SUMMARY..................................................................................................................... i

BACKGROUND AND INTRODUCTION ............................................................................................. 1

   PURPOSE OF THE EVALUATION ................................................................................................................. 1

   OVERVIEW OF THE FYR ............................................................................................................................ 1

   ORIGINAL INTENT OF THE FYR ................................................................................................................. 2

   FEDERAL PERSONNEL SYSTEMS AND MERIT PRINCIPLES ........................................................................ 4

   CHANGES IN THE PEACE CORPS’ OPERATING ENVIRONMENT SINCE 1961 .............................................. 5

SECTION A: THE FYR’S IMPACT ON EMPLOYEE TURNOVER AND TENURE ............................... 7

   THE FYR HAS ACCELERATED EMPLOYEE TURNOVER BEYOND WHAT WAS INTENDED AND
   CONTRIBUTED TO UNWANTED STAFF ATTRITION. ..................................................................................... 8

   THE FYR HAS CONTRIBUTED TO AN AVERAGE LENGTH OF EMPLOYMENT AT PEACE CORPS THAT IS
   WELL SHORT OF FIVE YEARS. .................................................................................................................. 13


SECTION B: EFFECTS OF ACCELERATED TURNOVER AND SHORT EMPLOYEE TENURE ON
AGENCY OPERATIONS .................................................................................................................. 16

   NEGATIVE EFFECTS OF HIGH TURNOVER IDENTIFIED IN PREVIOUS STUDIES ........................................ 16

   FREQUENT DIRECT HIRE VACANCIES AND EXCESSIVE TURNOVER HAVE HARMED OVERSEAS POSTS 17

   THE FYR HAS NEGATIVELY AFFECTED STAFF DEVELOPMENT AND TRAINING .................................... 22

   HIGH TURNOVER HAS CONTRIBUTED TO AN INSUFFICIENT INSTITUTIONAL MEMORY ......................... 23

   THE FYR HAS WEAKENED PEACE CORPS’ ABILITY TO ATTRACT AND RETAIN QUALIFIED PERSONNEL
   TO PERFORM CORE MANAGEMENT FUNCTIONS. .................................................................................... 25

   THE FYR HAS MADE SUCCESSION PLANNING MORE URGENT AND HARDER TO ACCOMPLISH............ 29

   THE FYR HAS ERODED PEACE CORPS’ CAPACITY FOR INNOVATION .................................................... 30

   THE 30-MONTH TOUR HAS CONTRIBUTED TO INADEQUATE PERFORMANCE MANAGEMENT ............... 31

SECTION C: NEED FOR BETTER DATA ON EMPLOYEE ATTRITION .......................................... 34
SECTION D:         COSTS OF MANAGING TURNOVER AT PEACE CORPS .............................................. 37


SECTION E: OTHER OBSERVATIONS RELATED TO RETURNED VOLUNTEERS AND POLITICAL
APPOINTMENT STRUCTURE......................................................................................................... 39

   RPCVS AND THE IN-UP-OUT IDEA ......................................................................................................... 39

   RPCVS AND THE PEACE CORPS’ CONTRIBUTION TO U.S. FOREIGN POLICY .......................................... 40

   STAFFS’ CONCERNS REGARDING THE PEACE CORPS’ POLITICAL APPOINTMENT STRUCTURE ................ 40

LIST OF RECOMMENDATIONS ...................................................................................................... 41

OBJECTIVES, SCOPE, AND METHODOLOGY ................................................................................ 42

APPENDIX A: ACRONYMS .............................................................................................................. 44


APPENDIX B: MAJOR LAWS AND REGULATIONS AFFECTING FEDERAL AGENCIES SINCE 1961 .... 46


APPENDIX C: AVERAGE LENGTH OF SERVICE OF PEACE CORPS DIRECT HIRE EMPLOYEES, BY
OFFICE: 2000 TO 2010 .................................................................................................................... 49


APPENDIX D: OIG SEMI-ANNUAL REPORTS TO CONGRESS THAT MENTION THE FYR ................. 50


APPENDIX E: AGENCY'S RESPONSE TO THE PRELIMINARY REPORT ............................................ 54


APPENDIX F: OIG COMMENTS ....................................................................................................... 58


APPENDIX G: EVALUATION COMPLETION AND OIG CONTACT..................................................... 59
                            BACKGROUND AND INTRODUCTION

Pur pose of the Evaluation
In February of 2011, OIG initiated an evaluation of the impacts the agency’s FYR has had on
operations of the Peace Corps. The purpose of the evaluation was to determine the FYR impact
on Peace Corps operations, both domestically and in the field, and the cost implications of the
FYR for the Peace Corps.

Over view of the FYR
The FYR is the set of rules that makes Peace Corps’ personnel system unusual compared to other
federal agencies or private sector firms. The FYR generally limits all USDH staff to five
consecutive years of employment with Peace Corps. The FYR only applies to USDHs; it does
not limit the length of employment of personal services contractors (PSCs) or foreign service
national (FSN) employees, and it does not apply to experts 5.

The FYR became law in August of 1965, four years after the Peace Corps was established. In
addition to the five year limit on USDH appointments, the 1965 law introduced two other
features in the agency’s personnel system: (1) the “in-out” rule required USDHs no longer
employed by Peace Corps to wait for as long as their preceding tour of duty had been in order to
be eligible to be re-hired (time out > time in); and (2) it gave the Director authority to personally
approve the extension of an individual’s appointment “under special circumstances” for up to
one year.

Twenty years later, in August of 1985, Congress amended the Peace Corps Act to allow up to 15
percent of USDH personnel to receive a third tour of two and a half years (for up to seven and a
half years of continuous employment). As a result of this change, the FYR has allowed a small
percentage of USDH staff (those who receive a one year extension, and a third tour) to be
employed on USDH status for up to eight and a half years without a break in service. 6

In 2004, Congress included language in the Peace Corps’ appropriations (applying to current and
subsequent fiscal years) that gave the Director authority to exempt from the FYR those USDH
employees “involved in the safety of Volunteers.” 7 Then-Director Gaddi Vasquez subsequently
identified a list of 23 positions for this exemption.

In November of 2011, President Obama signed P.L. 112-57, the Kate Puzey Peace Corps
Volunteer Protection Act of 2011(Kate Puzey Act) into law. The Kate Puzey Act established an
5
  According to the Peace Corps FY 2010 Human Capital Management Report there were 845 USDH, 200 FSN and
1,987 PSC staff on board in September of 2010.
6
  According to personnel records from 2000 to 2010, 4.2% of the agency’s USDHs over that period worked more
than 7.5 years.
7
  P.L. 108-199, Consolidated Appropriations Act, 2004 provided authority to the Peace Corps Director to make and
extend appointments of positions “involved in the safety of Peace Corps volunteers” in excess of 5 years,
notwithstanding the various provisions in section 7 of the Peace Corps Act referred to as the FYR. Unlike the 2003
Peace Corps appropriations (see P.L. 108-7, Consolidated Appropriations Resolution, 2003) the 2004 appropriations
authorized the Director to extend appointments of safety and security personnel in the 2004 fiscal year as well as any
subsequent fiscal year.


Final Evaluation Report: Impacts of the Five-Year Rule                                                                   1
Office of Victims Advocacy and exempted the victims advocate position(s) from the FYR. This
law also amended section 7(a) of the Peace Corps Act so that it “shall not apply” to the Inspector
General (IG) of the Peace Corps or any OIG employees.

Or iginal Intent of the FYR
One of the challenges facing the first Director of the Peace Corps, Sargent Shriver, and
his senior staff in the 1960s was to recruit employees with relevant international
development experience and cross-cultural skills. Director Shriver himself had some
international voluntary experience based on his involvement in the 1930s with the
Experiment in International Living 8 (World Learning today) and some of his senior staff
had worked for the United States Agency for International Development (USAID). But
in the early 1960s when the Peace Corps was hiring its first employees, the agency was
generally unable to recruit people with relevant international experience and cross-
cultural skills for the simple fact that in the early 1960s there was nothing like the current
number and variety of international development or cultural exchange organizations (see
Changes in Peace Corps’ Operating Environment Since 1961).

In response to this early challenge, a consultant working for the Peace Corps, Dr. Robert Textor,
wrote a memo on December 11, 1961 9 proposing that Peace Corps have its own personnel
system “independent of the Civil Service Commission” and characterized by two ideas: first, that
the agency should hire former Volunteers as staff “as soon as possible” to fill “almost all
substantive jobs [that] influence the shape and gusto of PC programs…e.g. Officers in
Recruitment, Selection, Training…and overseas Representatives”; and second, that employment
at Peace Corps should be a limited, non-career appointment that allows enough time for staff to
be promoted according to an “in-up-out” principle. The initial staff employment limit was
proposed as “perhaps eight years.”

Director Shriver’s hand-written notes in the margin of the 1961 memo expressed his enthusiasm
for the proposed advantages of the plan, which included:

            a)   “Excellence” (because only the best RPCVs would be selected to work as staff)
            b)   “Sound Programs” (designed by RPCVs with fresh, valid field experience)
            c)   “Effective Field Operations” (due to high quality input from RPCVs)
            d)   “High Morale” (the opportunity to have a leadership role in the agency would
                 boost morale among Volunteers and staff)
            e)   “Elimination of Inappropriate Applicants” (no one seeking a “cushy life-
                 long” job would apply to work at the Peace Corps)
            f)   “Facilitation of Careers” (the eight-year limitation would create room for high
                 performers to move up)
            g)   “Impact on Foreign Policy” (staff would leave the Peace Corps for jobs at the
                 Department of State and USAID and other places to influence U.S. foreign
                 policy); and
            h)   “Youthfulness” (The Peace Corps would be alone among federal agencies in
                 staying “young”)

8
 Point of the Lance. Sargent Shriver. Harper & Row. 1964. pp.12-13.
9
 A Plan to Keep the Peace Corps Permanently Young, Creative, Dynamic. December 11, 1961. Peace Corps
General Counsel files.


Final Evaluation Report: Impacts of the Five-Year Rule                                                 2
The 1961 memo has been quoted and paraphrased here in detail in order to clarify the original
reasoning behind the creation of the agency’s FYR, and because in general this memo remains an
accurate reflection of what the agency expected to accomplish through the establishment of a
personnel system tailored to meet its needs.

The problem of ensuring that the agency’s employees could understand the volunteer experience
and make appropriate policy decisions based on that understanding was a critical one for Peace
Corps at the time, and a key motivation behind the Director’s four-year effort to modify Peace
Corps’ personnel system accordingly. Correspondence between the Peace Corps and the Bureau
of the Budget (today the Office of Management and Budget) lays out Director Shriver’s belief
that if the Peace Corps offered its staff time-limited rather than career appointments, it would:

        “…ensure that the commitment of persons taking staff positions in the Peace Corps is a qualitatively
        different kind of commitment from that of persons taking jobs in regular Government agencies…I think
        that if persons on the Peace Corps staff have made a special kind of commitment to the Peace Corps, they
        will be more likely to keep in tune with the Volunteers whom they serve, all of whom have made a similar
        commitment.” 10

Over its first few years of operations under Director Shriver, the Peace Corps grew quickly. By
June of 1963, the agency had a total of 806 permanent positions for its American staff, and this
number was projected to rise to 926 by June of 1964. 11 In March of 1965, after more than 8,800
individuals had already ended their Volunteer service, Director Shriver explained in a memo to
the White House why the Peace Corps sought to recruit its staff from the ranks of returned
Volunteers and former overseas staff:
        “Peace Corps/Washington has a critical need for people who can translate the values and the methods of the
        Peace Corps’ overseas audience into Washington decision making…The Peace Corps’ main source of such
        persons is its former overseas staff and volunteers. To make sure that at all times there are places for
        significant numbers of former overseas staff and volunteers in Peace Corps/Washington, a Peace Corps
        with a stable total level of Washington employment cannot get clogged up with career employees.” 12

In August of 1965 Congress amended section seven of the Peace Corps Act, requiring the Peace
Corps to make all of its appointments for both domestic and overseas positions under the Foreign
Service Act of 1946, as amended. In passing the FYR, Congress intended to “permit a constant
inflow of new blood and ideas,” to give the agency “administrative flexibility which is not
possible under the restrictions of the civil service system,” and to make sure that the agency’s
staff “not be organized on a career basis. 13” This change “eliminated the career civil service
cohort from the Peace Corps 14” and required all Peace Corps direct hires be employed on time-
limited, non-career foreign service appointments. The 1965 amendments also made Peace Corps’
personnel system unusual. Unlike other foreign service agencies such as USAID and the
Department of State, the Peace Corps would no longer have career civil servants working for the
10
   Correspondence from Director Shriver to Kermit Gordon, Director, Bureau of the Budget. May 21, 1963
11
   ibid.
12
   Memo from Director Shriver to Bill Moyers, Special Assistant to the President. How to Keep the Punch in the
Peace Corps. March 5, 1965.
13
   S. Rep. No. 267, at 6 (1965) and Conf. Rep. No. 728, at 2 (1965), U.S.C.C.A.N. 2768, 2775.
14
   History of Section 7 and the Five-Year Rule, Appendix to Memorandum for the Director on the Five-Year Rule
Exemptions for Positions Involving Safety. Peace Corps General Counsel. April 3, 2002.


Final Evaluation Report: Impacts of the Five-Year Rule                                                               3
agency’s headquarters in the United States. Unlike other federal agencies, the Peace Corps would
be prevented by law from retaining its direct hire employees longer than five consecutive years
(or six years under special circumstances).

Our review of archival records surrounding the establishment of the FYR determined that in
amending the Peace Corps Act to put in place a strict five year limit on employment and the ‘in-
out’ rule, Congress did not give Director Shriver the flexibility he had sought. Director Shriver
desired the authority to personally approve, on an individual basis, additional tours of up to five
years if he considered it to be in the public interest, for up to 10 years of consecutive
employment; he considered this flexibility “essential” in May of 1965 15 . The Director also
sought the authority to re-appoint individuals after a ‘time-out’ period of 12 months or until the
expiration of a period of time equal to the preceding tour, “whichever is shorter.” 16 The version
of the Peace Corps bill proposed by the U.S. House of Representatives, but not passed into law,
would have provided the Director these flexibilities. The bill proposed by the U.S. Senate
contained the stricter five year limit as well as the ‘in-out’ rule.

Table 1: 1965 Senate and House Bills to Amend the Peace Corps Act
Senate Version of 1965 Peace         House Version of 1965 Peace          Peace Corps
Corps Legislation                    Corps Legislation                    Preference in 1965
5-year limit on employment;          5-year limit on employment;          House Version
Director can approve 1 year          Director can approve 5 year
extensions (maximum 6 years)         extensions (maximum 10 years)
Employee can be re-appointed         Employee can be re-appointed         House Version
after a time-out period equal to     after a maximum time-out period
length of preceding tour             of 12 months
Source: National Archives. August 2, 1965 memo from Peace Corps general counsel on Senate and House versions
of bill to amend further the Peace Corps Act

Feder al Per sonnel Systems and Mer it Pr inciples
Because the FYR placed limits on the Peace Corps’ personnel system, it is important to review
the government-wide principles that guide the management of federal personnel systems. Federal
law requires executive agencies to manage and implement their personnel systems consistent
with merit system principles. 17 Congress has also determined that the Foreign Service should be
operated on the basis of the merit principles. 18 The Peace Corps is an executive agency that
employs its staff based on the Foreign Service, and should also adhere to the merit system
principles.

In brief, the merit system principles require federal agencies to:

     •   conduct recruitment in a way that achieves a work force from all segments of society;
     •   make hiring and promotion decisions based on ability and knowledge;
     •   ensure that competition for jobs is fair and open;

15
   Correspondence between Sargent Shriver and Thomas Morgan, Chairman of the Committee on Foreign Affairs,
House of Representatives. June 8, 1965. Peace Corps General Counsel Archives.
16
   Ibid.
17
   5 U.S.C. §2301
18
   22 U.S.C. 3901


Final Evaluation Report: Impacts of the Five-Year Rule                                                         4
       •   not base employment decisions on politics, race, religion, national origin, gender, age,
           marital status, or disability;
       •   provide equal pay for equal work;
       •   ensure that employees conduct themselves with integrity and concern for the public
           interest;
       •   use their workforce efficiently and effectively;
       •   retain employees on the basis of their performance, correct inadequate performance, and
           separate employees who do not improve;
       •   provide education and training to their employees to improve individual and
           organizational performance; and
       •   ensure that their employees do not face arbitrary action, favoritism or coercion, do not
           use their position or authority for political purposes, and do not face reprisals for whistle
           blowing.

In addition to these merit system principles are twelve prohibited personnel practices that,
generally stated, provide that federal employees who have authority over personnel decisions
may not abuse their authority in a range of ways. 19 For example, a hiring official may not
discriminate against an employee or applicant based on race, religion, or other characteristics;
may not consider recommendations based on factors that do not relate to the job; may not coerce
political activity; may not engage in nepotism; may not retaliate against a whistleblower, and
may not take any action that would violate merit system principles.

Additionally, the Government Accountability Office (GAO) has articulated a set of standards for
internal controls for federal agencies, including standards related to human capital management:
       “Effective management of an organization's workforce--its human capital--is essential to achieving
       results and an important part of internal control. Management should view human capital as an asset
       rather than a cost…As a part of its human capital planning, management should also consider how best
       to retain valuable employees, plan for their eventual succession, and ensure continuity of needed skills
       and abilities.”

The 1965 amendments to section 7(a) of the Peace Corps Act have resulted in the agency having
to separate its direct hire employees according to a schedule determined by each employee’s
enter-on-duty date. The amendments have impeded Peace Corps from retaining its employees on
the basis of their performance, as would be the case in a personnel system operating according to
the merit system principles. Nevertheless, within the constraints of the FYR and the duration of
each USDH employee’s limited appointment, the Peace Corps should make hiring, retention,
promotion, and separation decisions consistent with merit system principles and manage its
personnel system consistent with federal internal control standards related to human capital
management.


Changes in the Peace Cor ps’ Oper ating Envir onment Since 1961
Over the past 50 years, at least three major areas of change in the agency’s operating
environment should be considered in relation to the rationale and continuing need for the FYR:

19
     5 U.S.C §2302


Final Evaluation Report: Impacts of the Five-Year Rule                                                            5
       (1) growth in the number and types of organizations involved in international
       development, along with dramatic growth in the supply pool of talented individuals with
       relevant experience;

       (2) the expertise required to use and manage new technology to enhance the agency’s
       operations; and

       (3) the knowledge and expertise required to stay in compliance with changes in federal
       laws and regulations.

The field of international development has seen tremendous growth since 1961. Today, the social
enterprise organization Devex, which brings together international development professionals
and organizations, counts almost 400,000 development professionals and over 9,300
international aid and development organizations among its members. The supply of talented
labor with relevant international development expertise today is different from what it was in
1961.

Advances in technology and the corresponding skill sets required to use and maintain them have
grown dramatically since 1961, and the Peace Corps requires the ability to attract information
technology (IT) professionals with a broad range of expertise to support and enhance the
agency’s operations. The Peace Corps must compete with other federal agencies as well as with
firms in the private sector for qualified professionals to maintain and manage these newer
technologies.

As a federal agency, the Peace Corps must comply with numerous federal laws and regulations
that have been put in place since 1961, many of which were designed to improve performance
and management, to make government more accountable, and to further professionalize the way
federal agencies plan and conduct their business. These laws relate to federal financial and
performance management, procurement and contracting, information management, oversight,
ethics, records accessibility and management, the management of personnel systems, and anti-
discrimination laws. For examples of these laws and regulations, see Appendix B. The Peace
Corps, like other federal agencies, needs qualified staff who can manage the agency’s operations
according to the requirements of these laws and regulations.




Final Evaluation Report: Impacts of the Five-Year Rule                                             6
     SECTION A: THE FYR’S IMPACT ON EMPLOYEE TURNOVER AND
                             TENURE

The FYR has supported the agency’s efforts to achieve its mission and goals in important ways,
including recruiting mission-driven employees with new energy and ideas and allowing the
Peace Corps to hire extensively from the returned Volunteer population. We spoke to managers
and employees who asserted that the FYR has been an important feature of the agency’s
personnel system. Below are some examples of respondents’ views of the benefits the Peace
Corps has received from the FYR:

        “The reasons behind the FYR continue to be exactly right—the agency should attract people who are
        mission-driven and not here just to have a job. They should agree to work here in spite of the FYR. This is
        critical.”

        “There is a real feeling that maybe problems can be solved this time... the FYR brings in new people who
        take a fresh look at it and say, we can fix that. And you know what? Once in a while they do. So the agency
        gets a lot of benefit from having new people come in with this attitude.”

        “People with new ideas come in and people with a mix of experience come in and truly love the
        organization. This is great.”

        “The FYR does create a special esprit de corps and you can’t over-estimate the value of this. Civil service
        does not create that kind of spirit at all.”

We could not systematically compare the camaraderie or esprit de corps among Peace Corps
staff to other federal agencies. However, the agency’s 2011 Employee Viewpoint Survey 20
results indicated that Peace Corps employees ranked the agency at or above government-wide
averages on 64 of 78 (82%) questions. In 2010 the Peace Corps was ranked as one of the top 5
best places to work among 34 small agencies.

Yet support among the agency’s employees for the FYR depended on the particular experiences
employees have had working through periods of staff transition and position vacancies at their
offices or posts. Responses to our survey about the effects of USDH turnover at overseas posts
indicated that the FYR has generated very mixed results depending on which USDH has left,
how the transition from one USDH to another was managed, and who the replacement was.
Below is a sample of comments from overseas field staff regarding how USDH turnover has,
based on their experience, affected their post’s ability to contribute to the agency’s mission
goals:
        “I can't say it’s negative or positive. It really depends on the person leaving the post and in our post we
        have had very valuable USDH staff.”

        “It is hard to tell if the turnover of USDH has a positive or negative effect…The impact varies depending
        on the position and also greatly on the personality of the assigned staff.”




20
  A government-wide survey that measures employees' perceptions of whether, and to what extent, conditions that
characterize successful organizations are present in their agencies.


Final Evaluation Report: Impacts of the Five-Year Rule                                                                7
          “If the changes and transitions do not happen within a timely manner then yes, it can be quite a negative
         and drawn out process overburdening the administrative officer [now director of management and
         operations]and the country director, which then has a ripple effect on the whole operation.”

In addition to those respondents who expressed strong support for some effects of the FYR, and
those who argued that the effects of the FYR just depend on who comes and who goes, we
interviewed some staff who argued that the FYR brought little or no value at all.

         “The FYR is very disruptive from an operational standpoint because people start looking for jobs almost as
         soon as they get here. People are leaving all the time, and it is often a shock.”

         “New ideas are welcome but it doesn’t take someone new walking in the door to generate new ideas. Some
         of the best ideas come from people who have been around a while. [Name] is an example of someone who
         continues to generate useful ideas for the agency even after having been around for a while. The notion that
         only new people can bring in fresh ideas is nonsensical.”

         “The FYR is too blunt an instrument because it forces us to let the best talent go, too, and all we really want
         is a way to keep fresh blood coming in and get deadwood out. There must be some better way of doing that
         without losing the talent that is so important for the agency to retain. There just must be a better tool for
         what the agency needs.”

Because of the diversity of viewpoints concerning the effects of the FYR, this report has based
its findings, to the extent possible, on analyses of available personnel and other records, relying
on respondent viewpoints for additional support.

The FYR has accelerated employee turnover beyond what was intended and contributed to
unwanted staff attrition.

The Congressional intent in passing the FYR amendment in 1965 was to enable the agency to
bring in a “constant inflow of new blood and ideas.” According to the Peace Corps Human
Capital Management Plan covering fiscal years 2009-2011, the Peace Corps “aims to achieve a
turnover rate of 20 percent. 21”

Merit system principles stress that the federal work force should be used efficiently and
effectively and that employees should be retained on the basis of the adequacy of their
performance. Additionally, the agency’s turnover goals, within the context of the constraints of
the Peace Corps Act, should be balanced against government-wide standards the GAO has set
out for human capital management that stress the importance of employee retention: “As a part
of its human capital planning, management should also consider how best to retain valuable
employees. ”

We found that turnover at the Peace Corps has been between 25 percent and 38 percent for the
years we were able to calculate. The median annual turnover rate from 2000 to 2010 was 31
percent. The consistently high rate of employee turnover at Peace Corps is beyond what was
originally intended and exceeds the agency’s goal of 20 percent. It is inconsistent with both the

21
  Peace Corps Human Capital Management Plan, FY2009 to FY2011, p.32. It is not clear from the Human Capital
Management Report or other agency records if the agency’s goal is to ensure that annual turnover is no more than 20
percent or at least 20 percent, or simply an expectation that about 20 percent of all direct hires will leave each year,
per the FYR, assuming an even spread of enter-on-duty dates in any year.


Final Evaluation Report: Impacts of the Five-Year Rule                                                                     8
merit system principle that a federal workforce should be used efficiently and effectively as well
as with federal standards for human capital management.

In recent years the Peace Corps’ annual turnover rate has been about four times the rate of the
rest of the federal government.

Table 2. Turnover at Peace Corps Compared to Rest of Federal Government
Peace Corps Turnover Rate         2004  2005  2006  2007  2008  2009  2010
Number of Employees 22            820   846   866   872   817   812   794
                      23
Number of Separations             264   261   279   266   269   214   200
Peace Corps Turnover Rate        32.2% 30.9% 32.2% 30.5% 32.9% 26.4% 25.2%
Government-Wide Turnover Rate 24   n/a 7.8% 7.8% 7.8% 7.6% 5.9%        n/a

This evaluation concerned a feature of the agency’s personnel system that has been in place since
1965. We examined historic records and available studies of turnover in the federal government
in order to understand the extent to which turnover at the Peace Corps in recent years has been
representative or unusual compared to previous periods. We also examined how turnover at the
Peace Corps has compared to government-wide turnover.

The Peace Corps’ turnover rate was high from 1961 to 1965 when the agency had hired a career
civil service staff for positions in the United States, i.e. when the argument for the FYR was
developed. The agency’s rate of personnel turnover was likely at least 20 percent in the early
1960s, as was common in the federal government generally at that time.

A letter from Director Shriver to the Bureau of the Budget in 1963 contained this remark: “While
the Peace Corps now has a high rate of turnover, it cannot be assumed that this would or should
continue; nor that it would reach the very ones who are just holding on to a job for the sake of
the job.”

When the Peace Corps was arguing for the need for the FYR, it encountered objections from the
Civil Service Commission (CSC), 25 whose chairman countered that the FYR was unnecessary
given the level of turnover common in the federal government at the time. In its objection, the
CSC stated that the FYR “appears wholly undesirable from the standpoint of good personnel
management generally” and pointed out that federal turnover in 1962 was 21 percent: “ample to
assure substantial turnover” at the Peace Corps without relying on a rule to limit tenure. The
CSC reasoned that the Peace Corps could use “proper selection, adequate career planning, and
judicious use of existing appointment authorities” to limit the length of service for whatever jobs

22
   Number of employees reported in Peace Corps Human Capital Management Plan, December 2009 and Human
Capital Management Report, December 2010.
23
   Separations in the fiscal year were derived based on personnel data provided by Peace Corps Human Resources.
24
   Beneath the Surface: Understanding Attrition at Your Agency and Why it Matters. Partnership for Public Service.
Booz Allen Hamilton. November 4, 2010.
25
   Until 1978 the Civil Service Commission managed the U.S. government civil service. Congress abolished the
Commission in 1978 with the passage of the Civil Service Reform Act and distributed its functions among three
agencies: the Office of Personnel Management, Merit Systems Protection Board, and Federal Labor Relations
Authority.


Final Evaluation Report: Impacts of the Five-Year Rule                                                               9
it wanted to limit. The CSC recommended “in the strongest terms” that the five-year limit be
deleted from the bill.

In 1979 a major review of the Peace Corps by GAO found that the agency’s turnover rate was
triple that of the rest of the federal government, and that the FYR contributed to 40 percent of the
agency’s annual turnover rate. In other words, 60 percent of the agency’s turnover rate was due
to other factors, not directly driven by the FYR.

We reviewed previous studies of employee turnover in the federal government in order to
compare the Peace Corps’ turnover to the rest of the federal government. 26 Though there have
been only a handful of major studies of federal turnover, their findings have been consistent: one
study found turnover of white-collar workers with permanent appointments to be 12.3 percent;
another found turnover among excepted service, GS-equivalent employees to be 11 percent; and
the turnover rate for new workers with less than five years of federal service was higher, at 15.1
percent. Studies have found a 25 percent turnover rate among all federal workers in their first
year of service; a 14 percent turnover rate for federal workers with from one to three years of
service; and 9 percent turnover for workers with 4-5 years of service. Turnover rates among
federal workers tend to slow down with age. Twelve percent of workers from 21 to 35 years old
resigned or transferred compared to 5.1 percent of workers aged 36 to 50 and just 2.3 percent of
federal workers 51 and older. Researchers conducting these examinations of government-wide
turnover reasoned that the high turnover rate for new federal workers reflected the tendency of
people early in their careers to be more mobile in the workforce.

If the same pattern held at the Peace Corps, one would expect to see differences in the length of
service, within the constraints of the FYR, by age group. Our analysis of personnel records from
2000 to 2010 showed that the average length of employment of the Peace Corps’ USDH
employees (excluding temporary workers, interns, experts and workers exempt from the FYR)
did vary according to age group. On average, younger employees left the Peace Corps a few
months into their second 30 month tour (54 percent of five years), whereas workers from 36 to
50 years old completed almost four years, 76 percent of their time available under the FYR.

Table 3. Length of Service of Peace Corps Employees, by Age Group
Age Group                                                21 - 35   36 - 50    51 and older     All ages
Average Length of Service (EOD 27 to Separation)         2.7       3.8        3.5              3

Turnover among newly-hired Peace Corps employees resembled government-wide averages
found in previous studies. From 2000 to 2007, the Peace Corps lost 22 percent of its first-year
direct hires to turnover; and of course the FYR has resulted in a higher turnover rate among
workers with 4 or 5 years of service. But employee turnover has been greatly accelerated at the
Peace Corps, beyond the intended effect of the FYR, among USDHs with from 1 to 3 years of


26
   Employee Turnover in the Federal Government. A Special Study. The Congressional Budget Office. February
1986; Who is Leaving the Federal Government? An Analysis of Employee Turnover. U.S. Merit Systems Protections
Board. August 1989; Why are Employees Leaving the Federal Government? A Special Study. U.S. Merit Systems
Protections Board. May 1990.
27
   Enter on Duty (the first day of a direct hire’s appointment)


Final Evaluation Report: Impacts of the Five-Year Rule                                                          10
service: 44 percent separated from the agency from 2000 to 2007, 28 a much higher percentage
than the 14 percent government-wide average found in previous studies.

Table 4. Employee Turnover Rates, by Length of Federal Service
                                      Workers with          Workers with 1 to      Workers with 4 to
                                      less than 1 year      3 years of federal     5 years of federal
                                      of federal service    service                service
Government-Wide
                                             25%                    14%                    9%
Turnover
Peace Corps Turnover (median
                                             22%                    44%                    37%
rates from 2000 to 2007)

The premise behind the FYR was that it would allow the Peace Corps to attract qualitatively
different workers who had made a special kind of commitment to the Peace Corps and would be
generally disinterested in their personal career considerations; that it would act as an applicant
filter and attract a special breed of employees, composed of a high percentage of RPCVs, who
would desire to serve the agency’s mission in spite of the fact that their appointment would be a
non-career, time-limited one.

We determined that 42 percent (1,214 out of 2,872) of direct hire employees from 2000 to 2010
separated from the agency before completing their first tour (30 months) and many of those
resigned very early. There were only minor differences in the separation rates of returned
Volunteer versus non-RPCV employees: 40 percent of RPCV and 45 percent of non-RPCV
employees left the Peace Corps within their first tours.




28
  We were able to calculate turnover rates among employees with from 1 to 3 years of service through 2007. After
2007, employees would not have had a chance to work for 3 years and be included in our sample of personnel
records that covered 2000 to 2010.


Final Evaluation Report: Impacts of the Five-Year Rule                                                             11
Figure 1. USDH Separations Within the 1st Tour (2000 to 2010)
                         200
                                                       USDH 1st Tour Separations from 2000 to 2010
                         180

                         160

                         140   non-RPCVs
     Total Separations




                         120
                                                                                                                                          non-RPCVs
                         100               non-RPCVs                non-RPCVs non-RPCVs
                                                       non-RPCVs                                                              non-RPCVs
                          80                                                                          non-RPCVs
                                                                                                                  non-RPCVs
                          60                                                              non-RPCVs
                                RPCVs
                          40                RPCVs                     RPCVs                                                                RPCVs
                                                                                  RPCVs
                                                                                                                               RPCVs
                                                           RPCVs                                       RPCVs
                          20                                                                RPCVs                  RPCVs

                           0
                                < 3 mo      3-6 mo      6-9 mo       9-12 mo    12-15 mo 15-18 mo 18-21 mo 21-24 mo 24-27 mo 27-30 mo

                                              Length of Employment of PC Staff Who Separated Within First 30 months


Further, as other studies of federal turnover have shown, the separation rate of federal employees
has tended to reflect employment opportunities in the broader U.S. economy. During the recent
economic recession the attrition rate of federal workers slowed as employees held onto their
positions. The Peace Corps’ turnover rate, accelerated as it is, also showed sensitivity to the
national unemployment rate, as seen in table 5.

Table 5. Unemployment and Turnover
Unemployment and
                                                     2004          2005        2006       2007        2008        2009         2010        2011
Turnover Rates
National Unemployment
                                                     5.5            5.1         4.6        4.6         5.8         9.3          9.6         9.1
Rate 29
Peace Corps Turnover
                                                 32.2%             30.9%       32.2%      30.5%       32.9%       26.4%       25.2%         n/a
Rate
Government-Wide
                                                     n/a           7.8%        7.8%       7.8%        7.6%        5.9%          n/a         n/a
Turnover Rate 30

As the unemployment rate moved up starting in 2008, the rate at which federal employees
separated from their agencies slowed down. At the Peace Corps, the annual staff attrition rate
slowed from 33 percent in 2008 to 26 percent in 2009 and 25 percent in 2010. It is reasonable to
conclude that this slow down was driven by the recession and the general lack of availability of
jobs outside the agency, rather than by an enhanced commitment on the part of its employees
over that brief period to the ethic of completing their non-career, limited appointments. Whether
or not Peace Corps employees have made a special kind of commitment to the agency, they have
responded to incentives and opportunities in the larger economy, just like other workers.
29
 Average annual unemployment rate based on monthly unemployment rates from the Bureau of Labor Statistics.
30
 Beneath the Surface: Understanding Attrition at Your Agency and Why it Matters. Partnership for Public Service.
Booz Allen Hamilton. November 4, 2010.


Final Evaluation Report: Impacts of the Five-Year Rule                                                                                                12
We were unable to find examples of other government agencies or private firms who have put in
place rules in their personnel system to force constant turnover and prevent themselves from
retaining valuable employees. Other agencies and firms appear to view staff attrition through a
different lens, and a more widely-accepted paradigm: that excessive attrition is harmful,
expensive and an impediment to the achievement of performance goals, and that agencies and
firms have a responsibility to the taxpayer or to their shareholders and customers to retain high
performing employees who contribute to the mission or bottom-line. That the Peace Corps Act
requires the agency to separate its direct hire employees based on their enter-on-duty date and a
clock, without regard for employee performance or contribution to the mission is inconsistent
with federal standards of human capital management and merit system principles. And when
compared to other agencies and firms’ goals and strategies to support employee retention, the
Peace Corps, as required by law, implements an approach to personnel management that is
unnecessarily costly and at odds with widely accepted principles of sound personnel
management (see Section D, Costs of Managing Turnover at Peace Corps).

One respondent reported to us, “If we lifted the FYR tomorrow we would calcify with current
staff.” Yet without the FYR the Peace Corps would have a natural turnover rate as employees
resign for a range of reasons, transfer to other federal agencies, relocate, and retire. In our review
of the agency’s personnel records and turnover rates of other federal agencies, we did not find
evidence to support the idea that the FYR has been necessary to guarantee a “constant inflow or
new blood and ideas” or that without the FYR the agency would face a crisis of bureaucratic
arteriosclerosis as predicted by the agency’s founders and some current staff.

While it is impossible to predict exactly what the agency’s natural rate of annual turnover would
be in the absence of the current FYR, it is reasonable to conclude that in order to reduce the
annual rate of turnover at Peace Corps below 20 percent the agency would need to substantially
alter the five-year appointment limit. In addition, although the FYR applies to all direct hire
employees with very few exceptions, the agency has acknowledged in its June 2011
Comprehensive Agency Assessment report to Congress that the value of employee turnover at
Peace Corps depends on which positions benefit more from fresh energy and ideas and which
positions benefit more from continuity and specialized skills:

       “While the agency benefits greatly from having the perspective of former Volunteers and overseas staff at
       Headquarters, as well as fresh energy and ideas, not all positions necessitate such perspective when
       compared to the value of capacity, continuity, business function, and institutional memory. For example,
       the country desk officer positions in each of the regions and the recruiter positions in regional recruitment
       offices benefit from the perspective and enthusiasm of returned Volunteers. However, key business
       functions performed by medical professionals, contract specialists, and human resources staff for example,
       may not equally necessitate such field perspective and currently suffer from frequent staff turnover and lack
       of continuity in a core business function of the Peace Corps.”

The FYR has contr ibuted to an aver age length of employment at Peace Cor ps that is well
shor t of five year s.

GAO has articulated a set of standards for internal controls for federal agencies, including
standards related to human capital management:



Final Evaluation Report: Impacts of the Five-Year Rule                                                                 13
        “Effective management of an organization's workforce--its human capital--is essential to achieving
        results and an important part of internal control. Management should view human capital as an
        asset rather than a cost…As a part of its human capital planning, management should also consider
        how best to retain valuable employees, plan for their eventual succession, and ensure continuity of
        needed skills and abilities.”

Our analysis of the Peace Corps’ personnel records from 2000 to 2010 indicates that the FYR has
led to abbreviated time-in-position and a short average length of total employment of USDH
staff. We calculated the length of employment of all personnel who worked at the agency from
2000 to 2010. The average length of time U.S. direct hire employees spent in the same position
over this period was 1.8 years. The average length of employment (from enter-on-duty date to
separation date) over this ten-year period was three years. The agency’s FSN and PSC
employees had much longer average tenures, at almost nine years for FSNs and over six years
for PSCs. 31

Table 6. Average Service of Peace Corps Employees: 2000 to 2010
Duty Station                 Number of Years from EOD to        Years in Same
                             Employees Separation (USDHs)         Position
Headquarters Direct Hires       1495            2.75                1.67
Overseas U.S. Direct Hires       462            3.85                2.02
Recruiting Offices USDHs         435            2.82                1.99
USDHs                           2392            2.98                1.79
Overseas FSNs                    199            N/A                 8.75
Overseas PSCs                    480            N/A                 6.16
FSNs and PSCs                    679            N/A                 6.92

Employee tenure in U.S.-based positions has been about one year shorter than the average length
of employment for overseas staff. Larger headquarters offices with particularly short employee
tenure included the Office of Management (OM) (2.27 years) and the Office of Volunteer
Recruitment and Selection (2.52 years). Collectively, offices responsible for ensuring that the
agency is in compliance with many of the laws and regulations governing the operations of
federal agencies, including the OM, the Office of Acquisitions and Contract Management
(OACM), the Office of the Chief Financial Officer (OCFO), and the Office of the Chief
Information Officer (OCIO), taken together, had an average employee tenure of 2.75 years over
the ten-year period (based on the average tenure of 570 employees performing compliance-
related functions). Among larger groups of employees only those serving at duty stations
overseas showed average employment approaching four years (see Appendix C).

Compared to other federal agencies, the Peace Corps’ average employee tenure is noticeably
short. The median tenure for all federal employees over the past 10 years has been about three
times as long in years as the average tenure of Peace Corps’ USDHs. 32 Additionally, Peace
Corps employees had somewhat shorter average tenures than employees in the private sector
(three years compared to four years in private sector in 2010). An analysis of Peace Corps

31
   FSN and PSC data made available to the OIG only included employees who were on board as of April, 2011. Any
FSN or PSC who worked for Peace Corps from 2000 to 2010, but was not employed in April of 2011 was not
included, as the data was not available.
32
   Data presented excludes interns, experts and other Peace Corps employees exempt from the FYR.


Final Evaluation Report: Impacts of the Five-Year Rule                                                           14
employee tenure conducted by OPM determined that average employee tenure, measured every 5
years from 1985 to 2010, ranged between 2.1 and 3.2 years.

Table 7. Average Years of Tenure with Current Employer: The Peace Corps Compared to
All Federal Agencies 33
 Average Tenure                  2000     2002     2004     2006     2008    2010
 Federal Government              11.5     11.3     10.4     9.9      9.9     7.9
 Peace Corps                     3.3      3.6      3.7      3.4      3.2     2.5

Staff and managers we interviewed and overseas employees we surveyed cited negative effects
of the constant turnover and short staff tenure that have resulted from the FYR, including:

       •   frequent position vacancies which in turn exacerbate workload and other related
           management challenges;
       •   a lack of institutional memory;
       •   insufficient succession planning;
       •   reduced incentives to invest in adequate staff training and professional development
           opportunities;
       •   reduced incentives to focus on performance management; and
       •   inability to follow-through on and successfully implement innovative ideas.

In addition, managers reported to us that the FYR makes it harder for them to attract and retain
qualified personnel to perform core contracting, financial management, information technology,
and medical support functions.

Moreover, the Peace Corps OIG has issued several semiannual reports to Congress (SARCs)
since it was established in 1989 that have reported concerns regarding the role of the FYR in
creating instability in the agency’s personnel system (see Appendix D).

The next section of this report describes the effects on agency operations of accelerated
employee turnover and short staff tenure in more detail.




33
     Bureau of Labor Statistics data available at: http://www.bls.gov/news.release/tenure.t05.htm


Final Evaluation Report: Impacts of the Five-Year Rule                                              15
   SECTION B: EFFECTS OF ACCELERATED TURNOVER AND SHORT
          EMPLOYEE TENURE ON AGENCY OPERATIONS

Negative Effects of High Tur nover Identified in Pr evious Studies
The FYR has been cited as a root or contributing cause of various weaknesses in the agency’s
operations. Specifically, previous reports have concluded that the FYR contributed to:

   •   excessive employee turnover, frequent staffing vacancies, and difficulties retaining
       qualified staff;
   •   a lack of institutional memory;
   •   a compromised capacity to learn from past mistakes and successfully implement
       innovative solutions; and
   •   costly and inefficient employee recruitment activities.

During the 1970s three major reviews, including two by GAO and one by the National Academy
of Sciences (NAS), expressed concerns about the negative effects the FYR had on the Peace
Corps. In addition, a Peace Corps/ACTION staff survey on the effects of the FYR revealed that a
majority of over 3,500 former and current employees believed the FYR was disruptive and
should be either dropped altogether or substantially modified. In 1972 GAO determined that
frequent staff turnover, together with the agency’s failure to implement recommendations from
previous reviews of Volunteer training, had caused weaknesses in the agency’s Volunteer
training programs. In 1974 NAS determined that limited data, together with “the frequent
turnover of staff because of the 5-year limitation on employment” made it impossible to build
“an instructive longitudinal profile” of the agency. The NAS report recommended that the Peace
Corps invest more resources in retaining an institutional memory and re-evaluate the FYR to
determine if the agency should have more flexibility to retain “experienced and capable people in
the organization for longer periods.”

In 1979 GAO conducted another review that found significant personnel problems at the Peace
Corps, including employee turnover triple that of other agencies and an inability to fill vacancies
quickly. GAO determined that “the 5-year rule…is the cause of much of this turnover,” and cited
concerns that the FYR harmed the agency’s institutional memory, impeded its ability to retain
talented and capable staff, and compromised Volunteer support. Emphasizing the NAS’ 1974
recommendations that the Peace Corps had not acted upon, GAO urged the Peace Corps again to
study the effects of the FYR and “determine if recommendations to the Congress are desirable.”
While the Peace Corps responded to GAO’s report by saying that it would evaluate the FYR, we
did not find evidence that the agency had done so.

In 1990 GAO reviewed challenges facing the Peace Corps in the 1990s and reported that a high
level of overseas staff turnover was a cause of insufficient Volunteer support. In several of its
SARCs since 1989, the Peace Corps OIG has reported its concerns regarding the destabilizing
and harmful effect that excessive employee turnover and short staff tenure have had on the
agency’s institutional memory, internal controls, staff training, talent attraction and retention,
financial management, performance management, overseas operations, Volunteer support, and
information technology management. In general, Peace Corps’ Directors have responded that the


Final Evaluation Report: Impacts of the Five-Year Rule                                                16
FYR has served the agency well. See Appendix D for detail on SARCs and the agency’s
responses.

In 2002 GAO evaluated the Peace Corps’ safety and security program. Their 2002 report found
that the agency’s Volunteer safety program had been unevenly implemented and that excessive
turnover and short employee tenure had contributed to this operational weakness. GAO reported
that the agency’s high turnover and insufficient documentation related to the agency’s safety and
security program had deprived the Peace Corps of “opportunities to apply lessons learned from
previous staff tenures.” Their report recommended that the Peace Corps submit a proposal to
Congress to change the FYR in order to improve its Volunteer safety and security program. In
February of 2003 Congress gave the Director of Peace Corps authority to extend beyond five
years the appointments of staff involved in the safety of the Volunteer and the agency listed 23
such positions.

A 2003 evaluation by the Peace Corps OIG of the system Peace Corps uses to recruit and place
its Volunteers, Evaluation of the Volunteer Delivery System, found that the FYR had contributed
to protracted periods of staffing vacancies for management positions related to recruiting,
screening and placing Volunteers, and that this had impeded the Volunteer delivery process.
Additionally, the report found that the Office of Volunteer Selection and Recruitment (VRS) had
high employee turnover, and that the Office of Medical Services (OMS) faced difficulties
attracting highly skilled staff.

A 2004 analysis of the Peace Corps’ workforce cited annual turnover rates at Peace Corps from
25 percent to 37 percent for direct hires, and an average tenure of two years, figures consistent
with our analysis of personnel records 34. The authors stated that most employees regarded
turnover as ‘excessive’ and that it contributed to high recruitment costs, frequent staffing
vacancies, inefficient operations and diminished strategic planning. The report recommended
that the Peace Corps pursue legislation to allow “multiple, limited appointments for any
employee demonstrating excellent performance of functions for which the agency has a
continuing need.” The authors suggested that the Peace Corps improve its process for assessing
staff performance as a basis for continued appointments, and that the agency put in place a limit
(20 percent) on the percentage of direct hires who could receive multiple tours. In addition, they
recommended that Peace Corps modify the ‘time-out’ period to be a maximum of 30 months no
matter how long an employee’s previous service had been.

The negative effects of excessive employee turnover cited in previous studies and evaluations
continue to have relevance for Peace Corps today. The rest of Section B in this report describes
current effects of high turnover and short tenure on Peace Corps operations, beginning with the
effects of direct hire turnover on the agency’s operations overseas.

Fr equent Dir ect Hir e Vacancies and Excessive Tur nover Have Har med Over seas Posts
The architects of the FYR hypothesized that it would help the agency to achieve a greater degree
of “excellence,” “sound programs,” and “effective field operations.” Our evaluation determined
that the accelerated pace of employee turnover had led to frequent periods of USDH vacancies at
34
  Analysis of the Peace Corps Workforce and Employment-Related Authorities and Regulations. Final Report.
September 22, 2004. Bacchus, William I. and Michel, James.


Final Evaluation Report: Impacts of the Five-Year Rule                                                      17
overseas posts and exacerbated challenges related to managing the transitions from one direct
hire to the next. Survey and interview respondents reported that frequent USDH transitions and
position vacancies had led to a range of negative effects on Peace Corps overseas programs.

Regional Offices for Africa, EMA and IAP face distinct challenges in the timely replacement of
departing USDH personnel serving in overseas leadership positions, including the country
director (CD), who is responsible for the overall management of the post; the director of
programming and training (DPT), who manages programming and training staff; and the director
of management operations (DMO), who has responsibility over administrative operations and
resources. Our analysis confirmed that the Peace Corps has performed reasonably well to
minimize lengthy periods of vacant USDH positions overseas. Ninety-one percent (233 out of
255) of the CD/DPT/DMO vacancies from 2000 to 2010 lasted less than six months.
Nevertheless, the average length of a USDH vacancy was more than three months for the 255
CD, DPT and DMO vacancies taken together.

The sheer pace and extent of direct hire turnover at Peace Corps has led to frequent periods of
leadership vacancies overseas and appears to have exceeded the agency’s best efforts to
minimize them. We identified 179 periods of time from 2000 to 2010 when a USDH position
overseas was vacant for at least one month. There were 55 periods of time when the CD position
at a post was vacant for at least one month (19 percent of the transitions from one CD to another
resulted in a vacancy of at least one month), and the average duration of those vacancies was
more than three months.

According to staff and managers we interviewed, the effect of a USDH vacancy overseas can be
disruptive, particularly at posts without experienced local staff who can assume additional duties
during a vacancy period. The extent of the impact is also dependent on the timing of the vacancy
relative to the flow of Volunteers entering the program or the administrative responsibilities at
that time of year. Current staff reported to us that the effect of a prolonged USDH vacancy had
been so disruptive at their posts that Volunteer site identification and development had suffered,
and Volunteer resignation rates had increased.

Our analyses of actual vacancy rates and Volunteer resignation rates from 2000 to 2010 noted a
correlation between prolonged USDH vacancies and Volunteer resignation rates: half of all posts
that experienced a USDH vacancy also had a higher than normal Volunteer resignation rate in
the same year. 35 Staff told us that in their experience USDH vacancies have contributed to lapses
in Volunteer support which led to high rates of Volunteer resignations. OIG country program
evaluations have noted that prolonged USDH vacancies sometimes result in a series of cascading
negative effects at posts, including lapses in Volunteer communications and oversight, host
family selection, Volunteer reporting feedback, and Volunteer file documentation. In response to
a survey we conducted of overseas staff, field staff frequently reported that a USDH vacancy of
two or more months can harm Volunteer support, strategic planning, staff workload, morale,
programming and training.



35
 A higher than normal Volunteer resignation rate at a post was defined as one that was above the post’s median
Volunteer resignation rate from 2000 to 2010.


Final Evaluation Report: Impacts of the Five-Year Rule                                                           18
Staff we interviewed said that part of the agency’s recurring management challenges associated
with replacing USDH personnel overseas had to do with the lack of succession planning and the
absence of staff groomed to move into leadership positions, i.e. ‘bench’ strength:

       “The agency does not make sure that there is no gap in coverage for key positions. Two days of overlap is
       thought of as good succession planning. But more often than not there are gaps when staff is already
       stretched and are then asked to do multiple jobs during these gaps—it puts Volunteers at risk. This is
       serious stuff. We need a bench of overseas staff—backup players.”

       “In my experience the most difficult time created by the 5 year rule is the time between USDH's at post.
       There are frequently months of waiting for the new person to arrive. This can and should be managed
       better. It creates a strain on the post and its staff.”

       “You compare what we do, which is so ad hoc, to the succession planning process at the Department of
       State. In the State Department there is a whole process for figuring out who in the system is going where
       next, and when. There’s a structured bidding system where you know months in advance what your next
       post is going to be, and you plan for it—you get trained for it, in fact. At Peace Corps, we have nothing like
       that at all. State’s transition management process is much more programmed and manageable, but with
       Peace Corps it is kind of catch-as-catch can. All of a sudden we have a crisis and if post can’t cover we
       have to send out a desk officer on a TDY. That’s not always a great solution to the staffing issues at the
       post.”

       “The truth is that the agency in general is too short-sighted in terms of planning and filling slots.”

We asked overseas field staff, both USDHs affected by the FYR as well as staff not subject to
the rule, if their post had been without a USDH position in the last two years for a period of at
least one month and, if so, how the vacancy affected their post. Among overseas staff there was a
difference in opinion concerning the severity of the impact of a USDH vacancy on post
operations. USDHs generally expressed the viewpoint that the absence of a USDH at the post
had a very negative effect on Volunteer support; other staff (PSCs and FSNs) generally reported
that in their view the effects of a vacancy were either minimal or negative, though not as severely
negative as USDHs indicated. Taken together the majority of overseas staff expressed that in all
areas, except relations with host country partners, the impact of a recent USDH vacancy at their
post had been mostly negative. The chart below graphs the percentage of overseas staff who
reported that the effect of a USDH vacancy at their post, in their experience, had been mostly
negative.




Final Evaluation Report: Impacts of the Five-Year Rule                                                                  19
Figure 2. Summary of Survey Responses: Effect of USDH Vacancy at Post
              Overseas Staff Survey Responses: USDH
              Vacancies Negatively Affect Peace Corps
 80%
        74%

 70%
                63%      62%
                                   59%      59%               57%
 60%                                                 57%


 50%

 40%
                                                                        33%
 30%

 20%

 10%

  0%




The following is a sample of the comments staff included to further illustrate their viewpoints
concerning the effects of vacant USDH positions at their posts.

       “The CD position was vacant for almost 2 months during pre-service training. This created too many
       responsibilities for the DPT who was also the Acting CD and therefore compromised training and support
       to volunteers who were COSing at the same time.”

       “My general experience is that posts, if lucky, generally survive these absences. They do take a toll on the
       officers who remain. They also impede innovation, creativity, and reform. Every time I've been forced to
       fill two (or more) of these positions, I get very close to burnout. Of course, when the new person comes on
       board, it takes a good 6 months to a year to fully handover the responsibilities you had assumed from their
       position.”

       “There is always a strain when you have fewer people and need to cover additional areas.”

In addition to asking overseas personnel to report specifically on the effects that periods of
USDH vacancy have had at their post, we asked overseas field staff to reflect more generally on
the changes in USDH personnel they have experienced and how those personnel changes
impacted (positively or negatively) post operations. These questions were designed to gather
viewpoints from overseas staff concerning the positive intended effects of the FYR--to lead to
quality programs overseas, and to bring in fresh blood and ideas.
Based on agency records, we identified 253 different CDs for a group of 55 posts that were in
operation continuously from 2000 to 2010. On average each post’s Country Director stayed 2.3
years. Twenty-nine of the 55 posts we examined (53 percent) each had at least five different CDs
over this 11-year period (an average CD tour of 1.9 years). Ten posts had six or more different



Final Evaluation Report: Impacts of the Five-Year Rule                                                                20
CDs, as well as 74 other different USDHs in either the DMO or DPT position, for a total of 136
different direct hire CDs, DMOs and DPTs from 2000 to 2010, or a new direct hire in one of
these three positions, on average, every nine months. On the other hand, just seven posts open
from 2000 to 2010 had three or fewer CDs over the period.
Table 8. Turnover of USDH Personnel at Peace Corps Posts from 2000 to 2010
Peace Corps Posts         Posts     Total     Average        Total        CD/DMO/           Average
Open from 2000 to                   CDs         CD           CDs,           DPT           CD/DPT/DMO
2010                                           Years        DMOs          Vacancies         Vacancy
                                              per post     and DPTs                         (months)
All posts                   55       253        2.3           605             233             3.8
Posts with 6 or more        10        62        1.7           136              52              4
different CDs
Posts with 5 or more        29       157         1.9           366            142                3.6
different CDs
Posts with 4 or fewer       26        96         2.8           239             91                4.1
different CDs
Posts with 3 or fewer        7        20         3.6            60             22                4.3
different CDs


There was not agreement between overseas field staff as to the overall effect that changes in
USDH personnel overseas had on a post’s ability to contribute to the Peace Corps’ mission.
When transitions from one USDH to the next were managed well, FSNs and PSCs tended to
express the viewpoint that turnover of USDH personnel at their posts had an overall positive
effect on their post’s ability to contribute to Peace Corps’ mission. USDH employees, on the
other hand, tended to express the contrary view that USDH turnover had an overall negative
impact on post’s ability to contribute to the mission.
The message from field staff was not very complicated: the impact of USDH personnel changes
overseas depended on who left, who came as a replacement, and how efficiently the transition
from one USDH to the next had been managed. By accelerating the number of USDH transitions
at overseas posts and by aggravating periods of vacancy in those positions, the FYR has elevated
the level of risk inherent in the agency’s personnel system.

As one former manager reported to us:
        “There are of course risks associated with hiring people, in that you never really know how someone is
        going to turn out, and even the best hiring managers occasionally make bad hiring decisions. Some
        percentage of new hires are going to be duds. So Peace Corps, because of the FYR, increases this risk of
        bad hires. And worse, bad hires are more harmful to Peace Corps than they would be at larger agencies
        where you tend to find more depth in the same position. At Peace Corps, if you make a bad hiring decision,
        you may be stuck with a dud who’s the only one performing that function, and then it just does not get done
        well and you don’t have the budgetary or FTE depth to work around that performance issue.”

We identified nearly 700 USDH transitions overseas from 2000 to 2010, including 179 instances
when a USDH position was vacant for at least one month. It is reasonable to conclude that the
pace of USDH turnover has simply exceeded the agency’s best efforts to manage it and that as a
result overseas operations have been negatively impacted enough to be a cause for concern.



Final Evaluation Report: Impacts of the Five-Year Rule                                                                21
The FYR Has Negatively Affected Staff Development and Tr aining
The GAO has articulated a set of standards for internal controls for federal agencies, including
standards related to human capital management; merit system principles also guide federal
employers to invest in staff education and training:

       “Employees should be provided effective education and training in cases in which such education and
       training would result in better organizational and individual performance.”

In its June 2010 Comprehensive Agency Assessment report to Congress, the Peace Corps
acknowledged that the accelerated pace of turnover and short staff tenures caused by the FYR
compromised the agency’s ability to provide sufficient training and professional development
opportunities to its employees:
       “The Peace Corps’ commitment to providing training to a constant flow of new employees joining
       the agency, potentially requires a financial investment higher than what the agency would invest if
       it were not restricted by the five-year rule.”

We found that with a few exceptions the agency generally has not invested in formal,
standardized professional development programs for its domestic staff and that it has not always
provided training to its overseas personnel. The FYR had contributed to this weakness in two
ways: by reducing incentives to invest in a staff with accelerated turnover and abbreviated
tenures, and by accelerating turnover to such an extent that the agency has been unable to keep
pace with the training needs of a constantly shifting staff. Internal assessments as well as external
reviews and audits have consistently noted the negative effect of the FYR on staff development
at the Peace Corps.

In its second report to Congress in 1990, soon after the office was established, the OIG pointed
out that the FYR had compromised the agency’s development of its staff:

       “Because of the five-year rule, there is limited opportunity to develop critical management skills…At
       present training of overseas staff is marginal. Not all are given an opportunity to attend overseas staff
       development training at headquarters…It is essential that Peace Corps devote more resources to training to
       insure that its programs are efficiently and effectively managed.”

The agency’s 2007 Internal Management Assessment Getting to Ideal describes staff
development as “an under-resourced, highly-valued, catch-as-catch can undertaking in the Peace
Corps, very dependent on the commitment of managers…and their creative abilities in finding
opportunities and resources.”

In its January 2008 report Peace Corps: Human Resources Operations Audit Report Q3 FY2007,
OPM found that employees were not satisfied with career development or training opportunities
and believed that Peace Corps considered it inappropriate to invest in staff development due to
limited employee tenure. OPM’s report found that Peace Corps had only partially met staff
development standards; it recommended that the agency expand its Leadership Development
Academy and provide more staff development opportunities for employees in managerial and
supervisory roles.




Final Evaluation Report: Impacts of the Five-Year Rule                                                              22
Current agency staff reported to us that training and staff development opportunities were
generally not provided to them and expressed the viewpoint that the FYR had reduced the
agency’s incentive to invest in staff development:

       “Another downfall of the FYR is that there is no ongoing professional development provided to staff. After
       all, why invest in someone who’s just going to leave anyway?”

       “When you can see that you’re not getting training, and there’s not room for professional or career growth,
       you’re going to leave.”

       “We have to talk about training in this discussion of the five year rule. If you offer someone a 5-year tour
       but don’t give them opportunities to grow as a professional, it probably won’t do much good for the
       agency.”

       “It should be a priority for the agency. It should be a higher priority for Peace Corps because of the FYR—
       we should have standardized training. “

       “One thing I want to stress here with you is training. HQ in general, and mostly because of the FYR which
       reduces incentives to train, does not invest in training its staff.”

We found that although the agency intends to send newly hired overseas staff through an
orientation and training prior to their start dates, such training has not been provided to all new
hires prior to their overseas assignment, and overseas personnel frequently began their jobs
before they had received overseas staff training (OST). Most overseas staff from 2000 to 2010
had not participated in an OST. An analysis of OST participant lists and employment records
from 2000 to 2010 revealed that out of over 1,300 individuals (including FSNs, PSCs and
USDHs) who entered on duty for an overseas staff position that has participated in OST, only 35
percent were trained at OST. Among country directors with an enter-on-duty date from 2000 to
2010, 117 out of 184 (64%) went through OST. In more recent years the Peace Corps has sent a
higher percentage of its CDs through OST: 30 out of 37 (81%) country directors with EOD dates
from 2008 to 2010 went through OST.
Our evaluation confirmed that current agency employees did not believe that the Peace Corps
offered sufficient training and professional development opportunities, and that earlier
assessments such as OPM’s 2008 recommendations remained valid and important. Based on our
review of previous studies and respondent input, the Peace Corps had not provided sufficient
staff development and training opportunities. Excessive turnover and short employee tenure
contributed to the Peace Corps’ persistent weaknesses in its staff education and training
programs.

High Tur nover Has Contr ibuted to an Insufficient Institutional Memor y
The ability to use one’s workforce efficiently and effectively depends in part on having enough
institutional memory to avoid unnecessary mistakes and to take advantage of opportunities to
make progress in areas where an organization has already taken important steps, so as not to
squander past successes.

Past reports and data collected during this review demonstrated that the FYR had negatively
affected the agency’s institutional memory. Studies conducted as early as 1974 noted the
negative effects of staff turnover induced by the FYR on the Peace Corps’s institutional memory.


Final Evaluation Report: Impacts of the Five-Year Rule                                                                23
In a major review of the Peace Corps, the National Academy of Sciences reported in its
assessment of institutional memory at the agency:

       “Because of the frequency of staff turnover and the highly fragmented nature of programs, the problem of
       identifying needs for acquisition and utilization of data is important for the Peace Corps. The committee
       feels that efforts should be directed more consistently, and larger resources allocated, to maintaining an
       institutional memory.”

In 1979, the GAO expressed concerns regarding harmful effects of the FYR on the agency’s
institutional memory. Its report underscored that the NAS had recommended five years earlier
that the agency evaluate the FYR limitation. It also noted that the Peace Corps had not done so.

In its first SARC, the Peace Corps OIG reported that an independent audit of the agency’s
financial management system by Peat Marwick Main & Company in 1988 found that the FYR:

       “…causes a weak internal control environment, deprives the agency of the institutional memory essential to
       the resolution of problems, increases staff training costs, and creates difficulty in attracting and retaining
       competent, qualified personnel to operate the financial management system economically and efficiently.”

A 2002 external evaluation of the Peace Corps Volunteer health system conducted by Pugh
Ettinger McCarthy Associates, LLC, stated that the FYR made the development and retention of
institutional memory especially difficult:

       “The five-year rule for Peace Corps employees creates an extra degree of importance for the task
       of developing and deploying written policies and procedures. In many organizations, institutional
       memory is vested in the memory and work processes of long-term employees. Written
       documentation is important, but what is more important…are the memories and experiences of
       existing employees. The five-year rule takes away this option for the Peace Corps and makes the
       written documentation of policy and procedure extremely important since they must guide the
       work of the organization through multiple generations of Peace Corps employees and leadership.”

In 2007 the agency conducted an Internal Management Assessment (IMA), Peace Corps
Regional Management: Getting to Ideal, which acknowledged that constant employee turnover
had contributed “inevitably to the underdevelopment of an institutional memory.”

OIG interviews conducted for this evaluation also confirmed that employees were frustrated with
the lack of institutional memory at the Peace Corps and they connected this problem directly to
the negative influence of frequent employee turnover. The effects of a lack of institutional
memory are difficult to assess in isolation but keenly felt by staff we interviewed:
       “They come in knowing they have a limited amount of time…People come in, ignore what’s been done,
       and move forward.”

       “One of the biggest wastes is starting projects and key people leave and nobody knows the status of a
       project and they disappear.”

       “When you have a five year rule you just have more transition; this leads to loss of institutional memory
       and historical knowledge.”




Final Evaluation Report: Impacts of the Five-Year Rule                                                                  24
       “Invariably a situation comes up that we haven’t faced or at least can’t figure out if we’ve ever faced it, and
       it is difficult to know how the agency handled something similar in the past, because the medical records
       are lacking.”

       “There was nothing in written form; really surprising to find nothing. One of the many things that surprised
       me was the lack of documentation.”

Our evaluation confirmed what many other concerned observers have noted previously—that
excessive turnover and short staff tenure at Peace Corps have contributed to weaknesses in the
agency’s institutional memory.

The FYR Has Weakened Peace Cor ps’ Ability to Attr act and Retain Qualified Per sonnel to
Per for m Cor e Management Functions.
Government-wide standards related to human capital management call for federal agencies to
consider how best to retain valuable employees, plan for their eventual succession, and ensure
continuity of needed skills and abilities.

The FYR applies to all direct hire employees, but the agency acknowledged in its June 2010
Comprehensive Agency Assessment report to Congress that there are some offices and functions
at Peace Corps for which the FYR may have minimal value:

       “…key business functions performed by medical professionals, contract specialists, and human resources
       staff for example, may not equally necessitate such field perspective and currently suffer from frequent
       staff turnover and lack of continuity in a core business function of the Peace Corps.”

We determined that the FYR had exacerbated the agency’s challenge of attracting and retaining
highly qualified personnel to support core functions where expertise and continuity are critical,
including contracting, financial management, information technology management, human
resources management, and medical support.

Acquisitions and Contracts Management
The average length of service of Peace Corps USDH employees in the agency’s Office of
Acquisition and Contract Management (OACM) from 2000 to 2010 was 2.84 years. The
Administrator of the Office of Federal Procurement Policy (OFPP) recently testified before
Congress concerning the importance of strengthening and supporting the federal acquisitions
workforce, including contracting officers (COs) and the contracting officers’ technical
representatives (COTRs) who monitor contractor performance and payment. In testimony the
Administrator said his “…administration is aggressively addressing the understaffing and under-
investment that for too long weakened the federal acquisition workforce.” OFPP is working
closely with OPM to improve the hiring process for contracting professionals by ensuring that
existing flexibilities for hiring and retaining employees are used. However, the statutory limit on
employment that the Peace Corps Act imposes makes it unlikely that OACM will be able to fully
benefit from these initiatives.

A 2010 audit report by Peace Corps OIG “Peace Corps’ Process for Soliciting, Awarding, and
Administering Contracts” determined that the lack of trained COTRs had exposed the Peace
Corps to risks, including higher or unnecessary costs relating to the acquisition of products or
services. The report pointed out that constant turnover and short staff tenure had compromised


Final Evaluation Report: Impacts of the Five-Year Rule                                                                   25
the agency’s ability to perform adequate acquisition planning. The report further observed that
the efforts of OACM senior managers to improve agency contract management were hampered
due to resource constraints, the difficulty filling vacant positions and retaining current staff due
to the non-career appointments required by the Peace Corps Act.

Respondents in OACM told us that over a period of eight months from 2011 to early 2012, 50
percent of the contracting officers in OACM separated from the agency. This turnover had been
driven by different causes: some contracting officers left to secure permanent positions and
promotions with other federal agencies; some left for personal reasons. Efforts to attract qualified
candidates to replace those who have left have proved elusive and the hiring manager reported to
us that OACM was having a very difficult time attracting qualified applicants, most of whom
could secure permanent positions with other federal agencies. As a result, OACM has
experienced workload challenges and the office’s efforts to update its policies and procedures to
keep pace with changes in federal acquisitions rules have been put on hold while senior staff
have had to take on operational duties rather than policy and supervisory work.

The FYR was put in place in 1965 in order to keep staff in tune with the Volunteer and to bring
in new blood and fresh ideas. OACM requires qualified staff to manage the process for
soliciting, awarding, and administering contracts according to complex rules and regulations.
The relevance of the FYR to the core support function of acquisitions and contracts management
is unclear, and the FYR has presented barriers to OACM’s ability to hire and retain qualified
employees, placing the agency at unnecessary risk.

Financial Management
The average length of service of Peace Corps USDH employees in the agency’s Office of the
Chief Financial Officer (OCFO) from 2000 to 2010 was 2.91 years. Concerns have been
repeatedly raised about the negative effects that high rates of employee turnover have had on the
agency’s financial management capabilities. In 1990 the OIG reported to Congress that it had
examined Peace Corps’ operations and found “deep and pervasive” financial, managerial and
administrative problems that had been in existence for 20 years, and that the FYR had
contributed to the agency’s inability to resolve them: “the continuity needed to identify the root
causes of these problems has been lacking.” In a subsequent SARC, the OIG noted that rapid
personnel turnover had harmed the “integrity of the Agency’s financial management systems.”

The agency’s Performance and Accountability Reports have noted the negative effect that
employee turnover has had on financial management at Peace Corps. In his letter to the Director
outlining the agency’s management challenges for FY 2004, the IG recognized the agency’s
efforts to implement a new financial accounting system but cautioned that for it to be successful
the agency would need to implement a strategy to reduce staff turnover and mitigate its related
effects. In the description of the agency’s management challenges for FY 2006 the Acting IG
pointed out the negative effect that turnover was having on the agency’s financial management.
In interviews, respondents told us that OCFO had difficulty attracting their top candidates to fill
positions, and had trouble retaining qualified staff due to the lack of a career path at Peace Corps.




Final Evaluation Report: Impacts of the Five-Year Rule                                                  26
Information Technology
The average length of service of Peace Corps USDH employees in the agency’s Office of the
Chief Information Officer (OCIO) from 2000 to 2010 was 3.27 years. Senior managers told us
that the constant turnover among OCIO personnel had contributed to the failure of several
information technology improvement projects, including: fleet management, a web-based
programming and training knowledge sharing platform, and the original version of a document-
sharing platform. Recent OIG letters to the Director concerning the agency’s FY 2011
management challenges have also referenced the negative effect that high levels of turnover have
had on OCIO’s ability to comply with relevant federal laws and regulations.

       “Achieving full compliance with federal laws and regulations that apply to managing the Peace Corps’ IT
       infrastructure are critical management challenges. OCIO is further challenged by high personnel turnover
       in key technical areas resulting, at least, in part from term limit assignments imposed by law and the
       availability of qualified resources.”

Staff in OCIO informed us that the constant turnover and frequent vacancies in OCIO personnel
meant that the office had not put together or maintained adequately documented standard
operating procedures, which, combined with turnovers, budget cuts, and position vacancies, had
created a hectic operating environment:
       “We are running around 75 percent strength most of the time. At any time we are 25 percent down. We’re
       authorized 83 FTEs and there are 15 permanent vacancies we cannot fill…I have 23 vacancies total that
       will go through a lapse out of 83 total. So we’re running that inefficient…Having budget issues and no
       SOPs is so shocking.”

Managers also informed us that OCIO was having difficulty retaining qualified personnel who
were leaving to secure more permanent positions in other federal agencies. As a result of the
office’s struggles to attract and retain a qualified direct hire IT workforce, OCIO managers were
considering letting direct hire positions that open up as a result of staff attrition remain vacant so
that they can hire contractors to perform the same work. This was an example of the difficult
choices senior managers at Peace Corps felt compelled to consider to avoid the impact of the
FYR on the operations of their offices.

Medical Support Services
The average length of service of Peace Corps USDH employees in the agency’s OMS from 2000
to 2010 was 3.08 years. A 2002 external evaluation of the Volunteer health care program
performed by Pugh, Ettinger McCarthy Associates, LLC, expressed concerns about the negative
effect that the FYR was having on institutional memory, and the ability of OMS to successfully
identify and implement organizational changes to improve the quality of the Volunteer health
care program:

       “The five-year rule also creates challenges for succession planning in management and leadership
       positions, almost making internal succession planning impossible and influencing organizational memory.
       One might expect that a succession of new managers and leaders would accelerate change, but we noted
       that the existing culture resists rapid change and new leaders and managers are counseled to go slowly. By
       the time a new leader has sufficient experience and knowledge about the way that existing processes work
       and decisions are made, the window begins to closing on leading major changes due to the five-year rule.”




Final Evaluation Report: Impacts of the Five-Year Rule                                                              27
In our interviews, senior managers expressed strong concerns about the negative effect of the
FYR on the ability of OMS to attract the talented staff needed, and they cited the negative effect
that regular staff turnover has on their ability to manage the delivery of health care to Volunteers.
According to our respondents, the FYR created a barrier to recruiting medical doctors with the
qualifications OMS seeks. They expressed concerns that constant turnover has compromised
OMS’ ability to build and retain a sufficient knowledge base and understanding of the different
health care systems in the countries where the Peace Corps operates, which often requires years
of professional experience to establish. Staff also expressed a concern that turnover had
exacerbated the agency’s inability to plan, design and put in place an information management
system to efficiently store, retrieve and review medical case history files, and make more
informed judgments regarding appropriate care decisions.

Managers we interviewed reported that OMS staff vacancies created extra strain on health care
professionals who have taken medical oaths in addition to the oath all Peace Corps employees
take to enter on duty. They believed that this extra ethical obligation made such staff more
vulnerable to workload stress as they covered additional work duties while managers tried to fill
vacant positions, or while new hires became fully oriented to the international health care
systems in more than 70 developing countries.

Below are some of the concerns expressed by staff and managers in charge of oversight of the
agency’s Volunteer health care program:
       “The quality of health care would improve without the FYR.”

       “It’s not as if you can just let the medical care slide until someone new comes in to fill the vacancy. The
       work ethic and the oath demand that you work overtime, you stay late, you work weekends, you do
       whatever you have to do to provide the best possible care to the Volunteer.”

       “The gaps take a long time to fill, which is also part of the problem. With security clearances and just all
       the procedures involved in hiring a federal employee, when a nurse leaves here it creates a big problem.”

       “On the medical floor, the FYR negatively impacts the health and safety and the overall functionality of the
       Peace Corps health care delivery system.”

Based on our review of past evaluations and current staff perspectives, we determined
that by accelerating turnover, compromising institutional memory, and impeding the
ability of OMS to attract highly qualified health professionals, the FYR has negatively
affected the Volunteer health care delivery system.

Human Resources Management
Another core management function that has been disproportionately affected by employee
turnover is the Office of Human Resource Management (HRM). From 2000 to 2010 the average
employee tenure in HRM has been among the lowest for all offices at 2.3 years. It is important to
note that this office, which experiences a high rate of turnover, is also responsible for processing
the personnel actions associated with managing the agency’s turnover. The 2010 Comprehensive
Agency Assessment report pointed out that HRM was an operational area “in need of
strengthening” yet it had attracted “only a small number of qualified applicants” to perform this
key operational function. Current HRM managers reported to us that HRM had not been
successful in attracting sufficient numbers of qualified applicants to fill positions in the office


Final Evaluation Report: Impacts of the Five-Year Rule                                                                28
and that the FYR had put the Peace Corps at a competitive disadvantage in the marketplace for
qualified HRM professionals with federal experience:

       “I do not think that the FYR should apply to HRM positions where the responsibilities are so driven by
       federal rules and laws that simply have to be followed, and where you need people who know those rules
       and have experience working under them. OPM keeps coming up with new programs that we have to
       follow so you need people who can keep up with those kinds of federal mandates.”

The high rate of turnover in HRM and the dampening effect that the FYR has on HRM’s
ability to attract and retain qualified personnel places this core management function at
risk.

In sum, we determined that the FYR had created a number of challenges that impeded
that agency’s ability to attract and retain qualified personnel to fulfill core management
and compliance-related responsibilities for the Peace Corps, such as contracting, financial
management, IT, human resources management, and medical support functions.

The FYR Has Made Succession Planning Mor e Ur gent and Har der to Accomplish
The high degree of turnover and short-tenure of staff make it all the more urgent for the agency
to have a solid succession planning program in place so that the best and brightest staff move
into policy-making and leadership positions where they can make significant and lasting
contributions to the goals of the agency. We determined that constant turnover and short staff
tenures had exacerbated the already difficult challenge of succession planning at the Peace
Corps.

A 2008 OPM audit found the agency did not meet standards for succession planning, due to the
dampening effects of the FYR:

       “Supervisors interviewed largely stated that succession planning was impossible with the five-year
       employment limitation rule; and universally, employees interviewed were unaware of any
       succession planning. Most interviewees stated that succession planning was informal at best, with
       selections for vacancies being made from whoever was available in the talent pool at the time, not
       through any strategic fortification of the talent pool.”

Staff we spoke to generally do not believe that the Peace Corps is doing enough to coordinate
succession planning, and that this failure is harmful to the agency’s operations:

       “We should have better succession planning; maybe there should be someone hired to coordinate
       succession planning for the agency—make sure that managers are preparing the next person to hit the
       ground running, and that staff are documenting their work and on-going projects; improve record
       management; improve documentation of organizational structure and re-structuring efforts.”

       “A lack of succession practices causes frustration and lost productivity.”

       “We shouldn’t wait until someone turns their ID in before we can replace them. We don’t have a system
       that matches our needs.”

       “Succession planning is a weak link, though. We don’t groom someone to take over. Only by accident do
       we do this.”




Final Evaluation Report: Impacts of the Five-Year Rule                                                          29
       “A successful firm would put in place a good management leadership training program—as part of a
       succession planning strategy. The agency does not have this now.”

For the 55 overseas posts that were in operation continuously from 2000 to 2010, we identified
over 230 instances when a key direct hire position (either the CD, DMO or DPT) was not
formally filled, though there may have been someone temporarily covering the work on a TDY,
on average for almost four months (see Table 8 above). From 2000 to 2010, thirty-three percent
of the transitions from one CD to the next resulted in an overseas staffing gap; DMO and DPT
successions resulted in slightly higher rates of staffing gaps--41percent for DMO and 45 percent
for DPT transitions.

Succession planning is very difficult in a non-career agency like the Peace Corps, particularly
given the short amount of time staff work for the agency. Most supervisors acknowledge that the
difficulty in identifying and grooming talented staff for promotions and leadership positions is
confounded by the reality that highly talented individuals must leave the agency and cannot
make a long-term commitment to the healthy operations of the Peace Corps.

The FYR Has Er oded Peace Cor ps’ Capacity for Innovation
A driving rationale behind the creation of the FYR was to bring in a constant inflow of new
blood and ideas and to keep the Peace Corps permanently creative and dynamic.

Rather than facilitating the agency’s efforts to identify and implement new ideas and
innovations, constant turnover and short employee tenure appear to have impeded them. The
June 2010 Comprehensive Agency Assessment acknowledged that turnover would not facilitate
the agency’s efforts to implement its new strategic vision that has been presented to Congress:
       “In an agency that sees frequent turnover at all levels because of the Five Year Rule and political
       appointments, the Peace Corps faces a particular challenge to the successful implementation of this
       strategy.”

While some staff we spoke to were able to provide specific examples of how the FYR had in
their view brought in a creative and dynamic person or team who had pushed the agency forward
in some innovative way, we met more staff who argued “you don’t get innovation from
turnover.” A more commonly reported perspective on the relation between innovation and the
FYR was that excessive turnover and short staff tenures made innovation harder and less likely
to happen, since innovation takes time and follow-through:

       “It makes you less ambitious because you know you can’t do the big long term changes the way you want
       to, and so responsible staff conclude it is better not to start and risk making things worse. It makes
       innovation and change harder than it would if you had more continuity.”

       “There is no follow-through. Study after study. No action. You don’t get innovation from turnover. In fact
       you get less innovation from turnover.”

       “Operationally the best people leave and then they are gone, and that’s a pain. I would rather have other
       ways of bringing in innovation than the FYR.”

       “They [several large projects] all failed because of personnel changes and leadership/management issues.”




Final Evaluation Report: Impacts of the Five-Year Rule                                                              30
       “We didn’t really have a system in place before the Quality Improvement Initiative to evaluate the quality
       of our health care delivery system, and make informed decisions about how to improve it. That was
       missing. Certainly the FYR was not helping us get there, either.”

       “It is impossible to get any project done and follow through. Far from helping us to innovate, the FYR
       makes it almost impossible to innovate because you can’t see a project to completion.”

Staff employed in the Office of Safety and Security, who have been exempt from the FYR since
2003, reported that they have been able to make sustained improvements in their program
because they have been able to draw on more experience and have gained more insight into best
practices in their functional area.

High turnover and short staff tenure have eroded the agency’s capacity to see innovation efforts
through to completion. Respondent perspectives on the extent to which Peace Corps has been
able to implement and follow-through on innovation initiatives, as well as our review of various
evaluations of Peace Corps going back to early 1970s, provide evidence that the agency has
frequently struggled with and failed to overcome persistent challenges.

The 30-Month Tour Has Contr ibuted to Inadequate Per for mance Management
Merit system principles call on federal agencies to retain employees on the basis of their
performance, to correct inadequate performance, and to separate employees who do not improve.

The lack of active performance management was frequently criticized by those interviewed for
this evaluation, as well as by field staff who responded to our FYR impact survey. Respondents
expressed the viewpoint that addressing the agency’s performance management challenges
should be a priority for the agency. Some argued that performance management was a more
pressing problem than the FYR, that fixing it should precede any legislative changes to the FYR
or the 30-month tour policy, and that if the FYR is changed before first improving the culture
and practice of performance management, the Peace Corps’ performance would suffer.

Performance management has been a consistently weak area for the Peace Corps. Both internal
and external assessments have attributed this weakness to the agency’s policy of employing its
direct hires on 30-month appointments. In its 1992 Inspection of Peace Corps Office of
Personnel Management, the Peace Corps OIG reported that the FYR contributed to a weakened
performance appraisal system because the agency could so easily separate employees regardless
of their performance. In its 2008 audit report of human resources management at Peace Corps,
OPM reported that the FYR appointment restrictions had a “major impact in terms of strategic
human capital management and result in acknowledged key challenges for management.” OPM
determined that the agency’s performance appraisal system only ‘partially met’ standards.

Interview and survey respondents told us that the agency’s 30-month appointment policy allows
supervisors to rely on the 30-month appointment as a substitute for performance management;
that employees who do not perform well are simply denied a second appointment which requires
no confrontation or active performance management. However, staff also expressed the concern
that two and one-half years can be a long time to employ an under-achieving employee, and that
low-performing employees can be more of a detriment at the Peace Corps than they would at a
larger agency with more staff available to pick up the slack.



Final Evaluation Report: Impacts of the Five-Year Rule                                                              31
We found examples of managers who took the necessary steps to put a low-performer on a
performance improvement plan (PIP) and did all the documentation and performance
management required to either improve someone’s performance or terminate the employment.
However, we also heard from managers who admitted that they sometimes did not carry out the
necessary steps because the PIP process was too cumbersome and onerous. Some argued that in
the federal government it was simply too difficult to terminate an employee, so the 30 month
tour was a necessary and useful tool. A broad range of attitudes and opinions concerning the
effects of the FYR on performance management were expressed by current Peace Corps staff and
managers, some of which are included as examples below:

       “The FYR also allows managers to avoid personnel issues since they will be flushed out anyway.”

       “The agency has a very poor record and dysfunctional culture of managing poor performers. Managers do
       not actively deal with poor performing employees.”

       “Six-month probationary period is too short, and too cumbersome to be effective, so it is under-utilized;
       this problem essentially forces managers to fall back on the 30-month tour as a way to flush out a non-
       performer.”

       “Performance management is a process and the PIP is part of that, but a lot of supervisors use the 30-month
       appointment to get rid of poor performers; there is no appeals or grievance process required for tour
       decisions. It just takes 30 days notice to the employee prior to second tour decision.”

       “It takes a lot of time and effort to do that [performance management], and in some cases if managers are
       honest about it, the truth is that you would rather try to find a safe corner to tuck a low-performer in until
       his 30-month tour is up, and then just let him go, rather than go through the intense amount of paperwork
       and documentation required to fire someone before their tour is up.”

       “The agency has to improve performance management as a way to make sure that positions open up.
       Performance should be the basis for personnel decisions, not a clock.”

       “While I would like to get rid of the 5-year rule in order to promote continuity, historical knowledge, and
       consistency at Peace Corps Posts, I have some concerns. The FYR seems to have become a way to get rid
       of staff who are not doing a good job. Instead of holding people accountable with performance reviews and
       disciplinary procedures, the 5-year rule is used as a way to get rid of people who are not doing a good job.
       If the agency cannot improve its systems for removing staff who are not performing well, then I am
       concerned that getting rid of the FYR will have an overall negative impact on the agency.”

       “I feel strongly that someone who has worked for Peace Corps for 5 years is in their prime…I don't see
       how taking someone out of that job helps the agency. Perhaps in lieu of the 5 year rule, we might apply an
       up or out rule. Where each position has a 5 year term and either you get promoted or you have to leave the
       agency. I think it would be better to focus on performance based management then to just let someone go
       because an arbitrary line of time has been crossed. If an employee is no longer serving the Agency then
       they should be let go, if they are exceeding expectations than we, as an Agency, should do everything in
       our power to keep them on board.”

The intent of the FYR was not to provide managers at the Peace Corps with an alternative tool to
avoid the difficult business of performance management. Government-wide standards of human
capital management and merit system principals require the Peace Corps to retain employees on
the basis of performance, correct inadequate performance, and separate employees who do not
perform.



Final Evaluation Report: Impacts of the Five-Year Rule                                                                  32
In order to address the negative effects of accelerated employee turnover and abbreviated
employee tenure, we recommend:

   1. That the Director carry out the necessary reforms to the FYR, including seeking
      legislative remedies if required, to reduce the rate of employee turnover and
      increase the average length of employment of the agency’s direct hire employees.

   2. That the Director identify which functions should be subject to periodic turnover to
      meet the needs of the agency, and implement a process to manage turnover so that
      the agency retains qualified personnel on the basis of merit and performance.

   3. That the Director identify the agency’s core business functions and positions that
      currently suffer from frequent staff turnover and lack of continuity, and determine
      and implement a process for acquiring and retaining qualified personnel to perform
      those functions on the basis of merit and performance.

   4. That the Associate Director for Management lead improvements in the agency’s
      approach to performance management by raising expectations to actively address
      employee performance issues and by providing supervisors with the training and
      support to correct inadequate performance and separate employees who do not
      improve.




Final Evaluation Report: Impacts of the Five-Year Rule                                       33
     SECTION C: NEED FOR BETTER DATA ON EMPLOYEE ATTRITION

The Peace Corps does not maintain sufficient or reliable information on the causes of employee
turnover. Without better data on why its employees choose to resign before their end of tour
dates the agency may not be able to generate effective solutions to reduce the rate of unwanted
employee attrition.


The agency lacks complete and useful data on the r easons why employees end their
appointments ear ly.

GAO’s internal control standards for federal agencies provide guidance related to the collection
and maintenance of data to inform management decisions:

        “Program managers need both operational and financial data to determine whether they are meeting their
        agencies’ strategic and annual performance plans and meeting their goals for accountability for effective
        and efficient use of resources.”

In addition, OPM has recently issued studies that stress how important it is for all federal
agencies to have a better understanding of the causes of staff attrition--an understanding “critical
to agency mission and health.” In order to develop this understanding, a federal agency needs
“data … to help highlight at-risk groups and factors that contribute to unwanted attrition.” 36 In
order for the Peace Corps to take well-informed steps that can slow down the pace of annual
employee turnover and increase employee tenure, the Peace Corps’ leadership would benefit
from a robust understanding of the causes of staff attrition.

Previous evaluations by OIG have found weaknesses in the agency’s data related to employee
turnover. In the December 2010 Follow-Up Evaluation of the Volunteer Delivery System (IG-11-
01-E), OIG reported that, when it previously found that excessive turnover in VRS had impeded
the Volunteer delivery system, it had been unable to determine if employee turnover had
improved since 2003. The Peace Corps did not routinely determine turnover rates or average
tenure, and the personnel data it provided to OIG for its analysis of turnover and tenure in VRS
had too many limitations to generate meaningful analysis.

Our evaluation of the impacts of the FYR also found that the Peace Corps lacked reliable
information concerning the causes of high levels of employee turnover. The Peace Corps had not
always collected information from departing employees on the reasons why they decided to
resign. Further, the limited data collected was not recorded electronically and could not be
retrieved or analyzed in an efficient manner.

We examined the agency’s electronic personnel records from 2000 to 2010 and analyzed the
separation codes of 2,500 direct hires over this period.


36
 Beneath the Surface: Understanding Attrition at Your Agency and Why it Matters, Partnership for Public Service,
November 2010.


Final Evaluation Report: Impacts of the Five-Year Rule                                                              34
Table 9. All USDH Separations (2000 to end of 2010) 37
Separation Reason                                      Number              Percent
Resigned before end of tour date                        1019                40.8%
Separated at end of tour                                 682                27.3%
Transferred to another federal agency                    551                22.0%
Retired                                                  177                 7.1%
Terminated (fired)                                        40                 1.6%
Resigned (political and other appointments)               16                 0.6%
Terminated during probation                               11                 0.4%
Other                                                      4                 0.2%
Grand Total                                             2500               100.0%

Of 2,500 USDH separations over this 10 year period, 40.8 percent resigned before their end-of-
tour dates and 27.3 percent separated at the end of their tours. It was not possible to determine
how many of the 1,019 resignations from 2000 to 2010 were primarily caused by the FYR as
opposed to something else. For example, the 27.3 percent of separations that coincided with end-
of-tour dates does not mean that the FYR contributed to only 27.3 percent of the agency’s
turnover. We know from interviews and other research conducted during this evaluation that
employees who may have preferred to remain at the Peace Corps instead transferred to other
federal agencies to secure a more permanent position or one with promotion potential. Therefore,
an unknown percentage of the 551 transfers from Peace Corps to other federal agencies was also
motivated by the FYR. We also know that some employees resigned from the Peace Corps
before their end-of-tour dates in order to secure positions outside the federal government,
presumably with more long-term career advancement potential than could be had at Peace Corps
within the five-year limit. Likewise, an unknown percentage of the 1,019 resignations were
motivated at least in part by the FYR. Employee viewpoint survey results for Peace Corps have
shown consistently low levels (40 percent) of satisfaction among agency employees regarding
their opportunity to get a better job at the Peace Corps.

We reviewed 201 hard copies of separation notices for 2010 to understand why employees
resigned early from the Peace Corps (separation notices sometimes contain notes that have not
been coded electronically). This more detailed review of separation notices did not allow us to
determine the contribution of the FYR to the agency’s 2010 turnover rate, because the notices
frequently lacked information on the reason for the early resignation.

Respondents reported to us that employees resign early when they do not see a viable career path
at Peace Corps, and that this is partly due to the FYR and partly due to the relatively small size
of the agency.
         “It makes forming a career very challenging. For example, as a recruiter, there are very few opportunities to
         advance. If you aren’t promoted to be Recruitment Coordinator, you have nowhere to go.”

         “The FYR does not allow people to develop a career path here.”




37
  The analysis in this table is based on the federal separation codes associated with Peace Corps separations from
2000 to 2010, as provided to OIG. It excludes experts, interns and temporary employees.


Final Evaluation Report: Impacts of the Five-Year Rule                                                                   35
       “The Peace Corps is a great agency to start and end a career, but not a good place to work in the middle of
       your career when many people want a longer-term commitment from the employer.”

       “One of the downsides of the FYR is that you don’t have an ability to develop and advance staff up to
       significant levels.”

       “In terms of an employment product, Peace Corps offers an inferior product compared to other agencies.
       The ladders here are so short. This encourages loss.”

       “Even if you had all high performing desk officers there is just not enough room for steady promotions and
       growth.”

Better data on why its employees resign early would equip the agency with information to
identify data-driven solutions to reduce the number of early resignations. Improved methods of
collecting and analyzing SF50 separation data are required in order to more fully understand the
reasons why employees end their appointments early and take proactive steps to mitigate the
causes of early resignations.

In order to improve the agency’s processes for understanding staff attrition, we recommend:

   5. That the Associate Director for Management put in place more robust processes and
      systems to gather and analyze data on the causes of unwanted, early employee
      resignations, and develop data-driven solutions to curb the pace at which employees
      resign early.




Final Evaluation Report: Impacts of the Five-Year Rule                                                               36
    SECTION D: COSTS OF MANAGING TURNOVER AT PEACE CORPS

The FYR has led to a high level of employee turnover. Replacing its employees requires the
agency to undertake a series of actions, each of which requires time and resources. This section
of the report presents the results of our analysis of the costs most closely associated with
managing employee turnover.

The constant tur nover acceler ated by the FYR cr eates extr a costs to the agency.

We estimated the direct financial cost of managing the agency’s personnel turnover from 2005
through 2009 to have been $20.7 million. The median turnover rate during this period was 30.9
percent, compared to 7.8 percent for the rest of the federal government. If turnover at the Peace
Corps had reflected government-wide turnover during this period, the agency’s costs of
managing turnover would have been reduced by more than $15 million to approximately $5.2
million. If turnover at the Peace Corps had been closer to 12 percent, as in-depth studies of
federal turnover suggest could be more likely, the agency’s costs of managing turnover would
have been reduced by $12.6 million to approximately $8 million. In other words, for the five-
year period from 2005 through 2009, the FYR contributed between $12.6 million and $15.5
million out of $20.7 million in turnover management costs.
We estimated the costs associated with employee turnover at the Peace Corps using a model we
developed based on other turnover calculation approaches and guidance. We were unable to find
a model that took into consideration the particular variables that affect recruiting, hiring, training,
placing and separating USDHs at the Peace Corps. Consequently, we developed a tool
specifically for the purpose of generating a reasonable estimation of the direct financial costs the
Peace Corps faces in managing its turnover-related activities and transactions. This calculator
went through an internal review process with OIG staff as well as with staff of Peace Corps’
M/HRM and other offices in order to identify the relevant categories of time and financial
resources spent on accession, training and separating the agency’s USDHs. We derived an
estimation of the cost of attrition at Peace Corps from 2005 to 2009, based on accession and
separation data in personnel records we analyzed.

Specifically, the costs included in this turnover calculation include:

•   Costs related to announcing a vacant position, based on the number of staff hours spent to
    develop a position description and the average cost per hour of the relevant staff person’s
    time;
•   Costs related to developing a roster of qualified applicants, based on average hours needed
    for this activity and the cost per hour of staff time;
•   Costs related to reviewing rosters and selecting candidates for interviews, based on the
    average number of qualified applicants to review and the number of hours needed to review
    each applicant and select candidates for interviews;
•   Costs related to interviewing candidates and making a selection, based on the number of
    candidates invited for an interview, the number of people involved in each interview, the
    number of interviews conducted per candidate, the amount of time staff spend preparing for,


Final Evaluation Report: Impacts of the Five-Year Rule                                                    37
    conducting and debriefing after each interview, and separating out the interview process for
    CDs from other staff on the basis that the CD selection process is more resource intensive
    compared to other positions;
•   Costs related to securing security clearances, based on information from the safety and
    security office regarding average costs for different categories of security clearance and the
    number of new hires who required them;
•   Costs related to providing overseas staff training, based on average airfare and per diem costs
    for OST participants, the number of days of OST and the number of USDH OST participants
    from 2005 to2009;
•   Costs of relocating overseas staff, based on average relocation costs and the number of
    relocations in the period;
•   Costs associated with covering periods of overseas vacancies through temporary duty
    assignments, based on budget figures obtained from regional staff; and
•   Costs of processing separations, based on hours involved to process the separation and the
    number of separations in the period.

We did not attempt to offset the direct management costs of personnel turnover with potential
savings that the agency may have achieved by not having to budget for salary increases of
longer-term staff, or by being able to replace outgoing USDHs with new hires who enter on duty
at a lower salary level.

We did not attempt to capture in financial terms the range of indirect costs associated with the
FYR, including:

    •   The value of the frequent loss of talented and experienced staff;
    •   The value of reductions in productivity during periods of staff transition and learning
        curves;
    •   The value of deficiencies in institutional knowledge;
    •   Disruptions in the continuity of leadership and management; and
    •   Costs related to projects that are delayed, deferred or fail entirely through personnel
        turnover instability.

Each of these costs may be more significant than the turnover management costs we were able to
estimate. However, given that factors in addition to the FYR influence these institutional
challenges and that there is not a reliable basis for quantifying them as costs, we did not attempt
to include them in our cost calculations. Our conservative approach nevertheless resulted in the
identification of important turnover-related costs.




Final Evaluation Report: Impacts of the Five-Year Rule                                                38
      SECTION E: OTHER OBSERVATIONS RELATED TO RETURNED
       VOLUNTEERS AND POLITICAL APPOINTMENT STRUCTURE

RPCVs and the In-Up-Out Idea
An important motivation and intent behind the creation of the FYR was to allow the agency to
hire returned Volunteers “as soon as possible” to fill “almost all substantive jobs [that] influence
the shape and gusto of PC programs”

Among all the agency’s USDH employees in the previous decade, 53 percent were RPCVs. In
terms of its overseas direct hire positions, our analysis of personnel data determined that the
Peace Corps had filled these leadership positions to a great extent with RPCVs. From 2000 to
2010, 78 percent of USDHs in overseas post leadership roles were RPCVs, including CDs, DPTs
(formerly Program and Training Officers), DMOs (formerly Administrative Officers).

Peace Corps has employed a balanced mix of RPCVs and non-RPCVs from 2000 to 2010 to
perform important operational and Volunteer support functions. Offices connected to the ‘shape
and gusto’ of Volunteer programs where one would expect to find higher percentages of RPCVs
(such as recruitment and placement, regional operations, programming and training, and other
communications and research functions) employed higher percentages of RPCVs. 38 About half
(48 percent) of the USDHs who worked in these offices from 2000 to 2010 were RPCVs.
Returned Volunteers filled fifty-one percent of non-supervisory positions in these offices, while
non-RPCVs occupied 72 percent of supervisory positions.

But accelerated turnover and short tenure may have undermined the potential of the original in-
up-out idea in not providing sufficient time for junior staff, both RPCVs and non-RPCVs, to rise
through the ranks to assume supervisory positions. Interestingly, the original author of the in-up-
out policy idea recently offered his view as to whether or not five years was the most appropriate
limit for Peace Corps appointments:

        “I believed then that five years would be too short. I believed that the RPCV who is recruited to work in a
        substantive staff position must be there long enough for her or him to (1) to learn the ways of federal
        bureaucracy, and (2) on the basis of excellent performance, rise to a position of influence; and then (3) still
        have a few years left in which to wield that influence with genuine effectiveness…. And eight years, of
        course, is precisely the number of years recommended in my original In-Up-Out memo. Given this fact,
        one cannot help wondering whether, if there had been an “Eight Year Rule” in force from the beginning,
        perhaps many problems might have been averted.”

The FYR has not resulted in the Peace Corps employing RPCVs in senior leadership and policy-
making roles at headquarters to the extent originally envisioned. Of the 95 USDHs in senior staff
positions at headquarters during the 2000s, 75 percent were non-RPCVs. While there are no clear

38
  Office of Communications, Office of Volunteer Support and Medical Services (VS/OMS), Office of Volunteer
Recruitment and Selection (VRS), Office of Safety and Security (OSS), Office of Public Engagement (OPE), Office
of Strategic Information Research and Planning (OSIRP), Office of Private Sector Initiatives (OPSI), Office of
Global Operations (OGO), Overseas Programming and Training Support (OPATS), Office of AIDS Relief (OAR),
Peace Corps Response (PCR), and the three Regions: Africa Region; Inter-America and Pacific Region (IAP); and
Europe, Mediterranean, and Asia Region (EMA).


Final Evaluation Report: Impacts of the Five-Year Rule                                                                    39
criteria for judging if 25 percent of RPCVs in senior staff positions meets the original intent
behind the in-up-out policy conceived in the 1960s, this percentage is much lower than the
percentage of RPCVs employed in overseas leadership positions during the ten-year timeframe
we examined.

RPCVs and the Peace Cor ps’ Contr ibution to U.S. For eign Policy
One of the original ideas associated with the FYR was that staff would leave Peace Corps for
jobs at the Department of State and USAID and other places to influence US foreign policy. We
determined that from 2000 to 2010, 22 percent of the employees who separated from the Peace
Corps went to another federal agency, and many of the 2010 transfers we reviewed were to either
the State Department or USAID. But the available data did not allow us to determine how many
former direct hire employees transferred to other federal agencies where they performed work
with a foreign policy focus, and it was beyond the scope of this evaluation to understand what
impact former Peace Corps employees have had on U.S. foreign policy or foreign assistance.

Staffs’ concer ns r egar ding the Peace Cor ps’ political appointment str uctur e
Throughout the course of this evaluation many interviewees expressed their beliefs and attitudes
regarding the effect that political appointees, particularly appointees with no previous Peace
Corps experience, were having on the operations of the agency. Many respondents insisted that it
was important for our evaluation to consider the combined effect on the agency’s operations of
constant staff turnover and the agency’s political appointment structure. The commonly
expressed reasoning respondents articulated was that these two features of the agency’s
personnel structure—high turnover created by the FYR and the high number of political
appointments managing the agency had combined to create a vicious cycle that harmed the
strategic direction of the agency, as well as the ability of staff to function effectively in carrying
out whatever strategy was in place at the time. Assessing the merit of this sentiment was outside
the scope of our evaluation.




Final Evaluation Report: Impacts of the Five-Year Rule                                                   40
                             LIST OF RECOMMENDATIONS
In order to mitigate the negative effects of excessive employee turnover and brief employee
tenure on the operations of the Peace Corps, we recommend:

   1. That the Director carry out the necessary reforms to the FYR, including seeking
      legislative remedies if required, to reduce the rate of employee turnover and increase the
      average length of employment of the agency’s direct hire employees.

   2. That the Director identify which functions should be subject to periodic turnover to meet
      the needs of the agency, and implement a process to manage turnover so that the agency
      retains qualified personnel on the basis of merit and performance.

   3. That the Director identify the agency’s core business functions and positions that
      currently suffer from frequent staff turnover and lack of continuity, and determine and
      implement a process for acquiring and retaining qualified personnel to perform those
      functions on the basis of merit and performance.

   4. That the Associate Director for Management lead improvements in the agency’s
      approach to performance management by raising expectations to actively address
      employee performance issues and by providing supervisors with the training and support
      to correct inadequate performance and separate employees who do not improve.

   5. That the Associate Director for Management put in place more robust processes and
      systems to gather and analyze data on the causes of unwanted, early employee
      resignations, and develop data-driven solutions to curb the pace at which employees
      resign early.




Final Evaluation Report: Impacts of the Five-Year Rule                                             41
                   OBJECTIVES, SCOPE, AND METHODOLOGY

In February of 2011, the Peace Corps OIG began an evaluation of the impacts the FYR has had
on operations of the Peace Corps. We concluded the main fieldwork phase of this review in
October of 2011. The primary objective of the evaluation was to determine:

   1. The FYR impact on Peace Crops operations, both domestically and in the field; and
   2. The cost implications of the FYR for the Peace Corps.

In addition, this evaluation describes unintended effects that are associated with the FYR, to
inform the agency’s management about how the FYR has been affecting the operations of the
Peace Corps in ways that may not be obvious but deserve attention.

We based our evaluation conclusions on information from document reviews, data analysis,
surveys, and interviews. The methodology included the following major steps:

   •   A review of the legislative history connected to the original intent behind the FYR, and
       subsequent amendments to the rule;
   •   A review of internal agency memos concerning the FYR from 1961 to the present;
   •   A review of studies that have identified effects of the FYR on different aspects of agency
       operations, including reports issued by the ACTION agency Office of Program and
       Policy Development, GAO, NAS, or private contractors;
   •   Interviews of current and former staff of the agency (76);
   •   A survey of field staff at all posts (including USDHs, PSCs and FSNs) to gather their
       input on how turnover and vacancies of key USDH personnel effect operations at our
       overseas posts (349 responses);
   •   A review of Peace Corps employee surveys from 2004 to 2011;
   •   An analysis of ten years of personnel records to determine the extent of turnover within
       the agency;
   •   An analysis of Peace Corps personnel data by the OPM’s Data Analysis Group that
       attempted to shed light on employee tenure at Peace Corps since 1985; and
   •   An estimation of the cost of turnover at the Peace Corps using a cost calculator an OIG
       senior evaluator designed based on available models and some agency input.

This evaluation sought to provide some answers to the question of whether or not the FYR has
served its intended purpose. Important steps to answer this question included identifying Peace
Corps’ as well as Congressional intent behind it. These documents included:

   •   The original ‘in-up-out’ memo from December of 1961;
   •   Correspondence from Director Shriver to officials at other federal agencies who were
       involved in shaping the FYR;
   •   Legislative history as contained in the original 1965 bill amending the Peace Corps Act,
       and associated conference reports; and



Final Evaluation Report: Impacts of the Five-Year Rule                                              42
   •   Agency reports, including the Human Capital Management reports that quantify aspects
       of the FYR, specifically desired turnover rates.

This evaluation was conducted in accordance with the Quality Standards for Inspections
issued by Council of the Inspectors General on Integrity and Efficiency. Those standards require
that we plan and perform the evaluation to obtain sufficient and appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our evaluation objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our evaluation objectives. The findings and recommendations provided in this report
have been reviewed by agency stakeholders affected by this review.

Data Limitations
In general the data that OIG requested was provided in a timely and complete manner by agency
personnel, who also assisted OIG throughout the evaluation in answering questions about the
data. The OIG would like to express gratitude in particular to LaTasha Mason in the Office of
Human Resources for her extensive and helpful assistance.

The data available for this study included a large excel spreadsheet the Office of Management
provided that contained 33,871 personnel actions from 2000 to 2010, with one row for each
personnel action. Thus, an individual direct hire employee typically had multiple personnel
actions associated with his or her employment. This presented numerous analytic challenges
related to determining each individual’s length of employment overall, as well as the amount of
time worked in each position and office.

There are issues with the usefulness of personnel data as currently maintained by the agency.
The first challenge concerns the inconsistent manner in which position titles have been keyed
into the payroll database. There are multiple variations of the same position title (e.g.16
variations and misspellings of the title for ‘Programming and Training Officer’), which
complicated efforts to analyze the amount of time that employees held the position. We
identified 980 different position titles in the 33,871 personnel records we examined. Taking the
position of IT Specialist (Systems Analyst) as an example, there were nine variations on the
position title, including “INFO. TECH. SPEC. (SYS. ANALYSIS)”; “INFORMATION TECH
SPEC (SYSTEM ANALYST)”; “INFORMATION TECH SPEC SYSTEMS ANALYST”; “IT
SPECIALIST (SYS ANALYST)”; “IT SPECIALIST (SYSANALYSIS)”; “IT SPECIALIST
(SYSTEMS ANALYST).

The second challenge that currently compromises the agency’s ability to understand employee
turnover concerns the lack of complete and useful data on the reasons employees decide to resign
early. Our analysis of separations that took place in 2010 revealed that 40 percent of those who
resigned before the end of their appointments did not provide a reason. In addition, data that
captures the reasons why employees stop working for the Peace Corps cannot be retrieved in a
useful way from the payroll database due to a limitation in that system, and so the agency must
rely on a paper-based review of SF-50 notices of personnel actions for meaningful detail
concerning separations. These factors result in a process for analyzing separations that is both
incomplete and cumbersome.




Final Evaluation Report: Impacts of the Five-Year Rule                                             43
                                  APPENDIX A: ACRONYMS


  AO                    Administrative Officer (previous title of Director of Management Operations)
  APCD                                                                 Associate Peace Corps Director
  CD                                                                                   Country Director
  CO                                                                                Contracting Officer
  COS                                                                                  Close of Service
  COTR                                                  Contracting Officer Technical Representative
  CSC                      Civil Service Commission (currently the Office of Personnel Management)
  DMO                                                              Director of Management Operations
  DPT                                                           Director of Programming and Training
  EOD                                                                                    Enter on Duty
  EMA                                                                 Europe, Mediterranean, and Asia
  FSN                                                                         Foreign Service National
  FTE                                                                             Full-Time Equivalent
  FYR                                                                               The Five-Year Rule
  GAO                        General Accounting Office (now the Government Accountability Office)
  GC                                                                                   General Counsel
  HQ                                                                                       Headquarters
  HRM                                                                   Human Resource Management
  IAP                                                                    Inter-America and the Pacific
  IMA                                                                Internal Management Assessment
  IPBS                                                         Integrated Planning and Budget System
  IT                                                                           Information Technology
  NAS                                                                   National Academy of Sciences
  OACM                                              Office of Acquisitions and Contract Management
  OCFO                                                            Office of the Chief Financial Officer
  OCIO                                                         Office of the Chief Information Officer
  OFPP                                                           Office of Federal Procurement Policy
  OIG                                                                       Office of Inspector General
  OM                                                                             Office of Management
  OMS                                                                       Office of Medical Services
  OPATS                                                 Overseas Programming and Training Support
  OPM                                                                 Office of Personnel Management
  OSIRP                                       Office of Strategic Information, Research and Planning
  OST                                                                           Overseas Staff Training
  PAR                                                          Performance and Accountability Report
  PC                                                                                        Peace Corps
  PCDBMS                                                  Peace Corps Database Management System
  PIP                                                                  Performance Improvement Plan
  PSC                                                                     Personal Services Contractor
  PST                                                                              Pre-Service Training
                        Programming and Training Officer (previous title of Director of Programming
  PTO                                                                                     and Training)
  RPCV                                                                Returned Peace Corps Volunteer
  RRO                                                                       Regional Recruiting Office
  SARC                                                                Semi-Annual Report to Congress



Final Evaluation Report: Impacts of the Five-Year Rule                                                    44
  SF50                                              Standard Form: Notification of Personnel Action
  SOP                                                                Standard Operating Procedure
  TDY                                                                              Temporary Duty
  USAID                                         United States Agency for International Development
  U.S.C.                                                                         United States Code
  U.S.C.C.A.N.                           United States Code Congressional and Administrative News
  USDH                                                          United States Direct Hire Employee
  VRS                                                          Volunteer Recruitment and Selection
  VS                                                                              Volunteer Support




Final Evaluation Report: Impacts of the Five-Year Rule                                                45
     APPENDIX B: MAJOR LAWS AND REGULATIONS AFFECTING FEDERAL
                         AGENCIES SINCE 1961

Federal Financial and Performance Management
Federal Managers Financial Integrity Act of 1982 (FMFIA) (P.L. 97-255), as amended
Requires agencies establish internal accounting and administrative controls that comply with
internal control standards prescribed by the Comptroller General to identify and address major
performance and management challenges and areas at greatest risk of fraud, waste, abuse, and
mismanagement.

Prompt Payment Act of 1982 (P.L. 97-177)
Requires the Federal government pay interest on overdue payments.

Chief Financial Officers Act of 1990 (CFO Act) (P.L. 101-576)
According to GAO, this is the most comprehensive and far-reaching financial management
improvement legislation since the Budget and Accounting Procedures Act of 1950. The
legislation brings more effective financial management practices to the Federal Government;
improves accounting, financial management and internal controls; and provides for the
production of complete, reliable, timely, and consistent financial information for use by the
executive branch and the Congress.

Government Performance and Results Act of 1993 (GPRA) (P.L. 103-62), as amended
Requires agencies to clarify their missions, set strategic and annual performance goals, and
measure and report on performance toward those goals. 2010 amendments require quarterly
performance assessments of Federal agencies, and established agency performance improvement
officers. The legislation creates: (1) chief operating officers, (2) program improvement officers,
(3) a government-wide performance improvement council, and (4) a government-wide
performance web-site.

Government Management Reform Act of 1994 (GMRA) (P.L. 103-356)
Addresses a range of Federal pay and financial management issues, and requires that Federal
agencies have their financial statements audited before submitting them to OMB.

Federal Financial Management Improvement Act of 1996 (FFMIA) (P.L. 104-208)
Advances Federal financial management by ensuring that Federal financial management systems
provide accurate, reliable, and timely financial management information to the government’s
managers.

Accountability of Tax Dollars Act of 2002 (ATDA) (P.L. 107-289)
Expands the type of Federal agencies required to prepare audited financial statements.

Improper Payments Information Act of 2002 (P.L. 107-300), as amended
Minimizes erroneous payments by Federal agencies, and is intended to enhance the accuracy and
integrity of Federal payments.



Final Evaluation Report: Impacts of the Five-Year Rule                                               46
Federal Oversight
Inspector General Act of 1978 (P.L. 95-452), as amended
The IG Act of 1978 established the responsibilities of an Inspector General, and in 1988 IGs
were established in small, independent agencies including Peace Corps.

Information Technology and Security
Information Technology Management Reform Act of 1996 (Clinger-Cohen Act) (P.L. 104-
106)
This law (the ‘CIO Act”) established Chief Information Officers in each Federal agency, and a
comprehensive approach for executive agencies to improve the acquisition and management of
their information resources.

Federal Information Security Management Act (FISMA) of 2002 (P.L. 107-347; Title III)
Provides a framework for ensuring the effectiveness of information security controls and
mandates Federal agencies develop, document, and implement an information security program.

Acquisitions and Contracts
Office of Federal Procurement Policy Act of 1974 (P.L. 93-400)
Authorized the issuance and development of the Federal Acquisition Regulations (FAR)
codifying uniform policies for acquisition of supplies and services by executive agencies.

Federal Acquisition Streamlining Act of 1994 (P.L. 103-355)
Enables simplified procurement of goods and services under certain conditions and promotes the
use of fixed price performance-based contracting.

The Federal Activities Inventory Reform (FAIR) Act of 1998 (P.L.105-270)
Provides a process for identifying the functions of the Federal Government that are not
inherently governmental functions.

Employment and Federal Personnel Systems
Civil Service Reform Act of 1978 (P.L. 95-454)
Significant reform of the Civil Service that abolished the Civil Service Commission and created
three new Federal agencies including the Merit Systems Protection Board, the Office of
Personnel Management, and the Federal Labor Relations Authority

Equal Pay Act of 1963 (P.L. 88-38)
Prohibits gender-based wage discrimination.

Civil Rights Act of 1964 (P.L. 88-352) (Title VII), as amended
Prohibits employment discrimination based on race, color, religion, sex and national origin.
Establishes the EEOC and provides it with regulatory authority.

Age Discrimination in Employment Act (ADEA) of 1967 (P.L.90-202)
Promotes employment of older persons based on their ability rather than age and prohibits
arbitrary age discrimination in employment.




Final Evaluation Report: Impacts of the Five-Year Rule                                            47
Occupational Safety and Health Act (OSHA) of 1970 (P.L.91-596)
Establishes OSHA and requires employers to provide a workplace free from recognized hazards
that can cause physical harm to employees.

Americans with Disabilities Act of 1990 (Pub. L. 101-336) (ADA), as amended
Prohibits employment discrimination against qualified individuals with disabilities.

Rehabilitation Act of 1973 (Pub. L. 93-112)
Prohibits discrimination on the basis of disability in programs conducted by or financed by
Federal agencies and in Federal employment.

Family and Medical Leave Act (FMLA) of 1993 (P.L.103-3)
Provides family and temporary medical leave under certain conditions in order to entitle
employees to take reasonable leave for medical reasons, for the birth or adoption of a child, and
for the care of a child, spouse, or parent who has a serious health condition.

Whistleblower Protection Act of 1989 (P.L. 101-12), as amended
Strengthens and improves protection of the rights of Federal employees in order to prevent
reprisals, and to help eliminate wrongdoing within the Government.

Access to Information and Privacy
The Freedom of Information Act (FOIA) of 1966 (P.L. 89-554), as amended
Requires Federal agencies to disclose requested information unless it is protected from public
disclosure. Significant amendments were passed by Congress in 1976 and 1996.

Privacy Act of 1974 (P.L. 93-579), as amended
Establishes a code of fair information practices that governs the collection, maintenance, use, and
dissemination of information about individuals maintained in systems of records by Federal
agencies.

Paperwork Reduction Act of 1980 (P. L. 96-511), as amended
Requires agencies to be more responsible and publicly accountable for reducing the burden of
Federal paperwork on the public. Provides the Office of Management and Budget with
regulatory authority governing Federal information and information policy.

Ethics
Ethics in Government Act of 1978 (P.L. 95-521), as amended
Established the Office of Government Ethics (OGE) to provide overall direction, oversight, and
accountability of policies designed to prevent and resolve conflicts of interest and to promote a
high standard of ethics for executive branch employees. OGE promulgated regulations in 1992
establishing the Standards of Ethical Conduct for Employees of the Executive Branch. OGE also
oversees the financial disclosure program for Federal agencies.




Final Evaluation Report: Impacts of the Five-Year Rule                                                48
APPENDIX C: AVERAGE LENGTH OF SERVICE OF PEACE CORPS DIRECT HIRE
                EMPLOYEES, BY OFFICE: 2000 TO 2010


 Peace Corps Office or Duty Station 39                                 Number of       Years from EOD
                                                                       USDHs           to Separation 40
 Headquarters                                                            1495                2.75
  Congressional Relations                                                  17                0.52
  Public Engagement                                                        24                1.35
  Private Sector Initiatives                                               30                1.38
  Press Relations                                                          74                1.97
  Management/Human Resources                                              216                2.27
  Safety & Security                                                        13                2.28
  Director's Office                                                        47                2.45
  Volunteer Recruitment and Selection                                     143                2.52
  Peace Corps Response                                                     30                2.53
  Strategic Information, Research and Planning                             13                2.63
  Programming and Training Support                                        150                2.78
  Acquisitions and Contracts (OACM)                                        33                2.84
  Chief Financial Officer (OCFO)                                          198                2.91
  Volunteer Support/Medical/Special Services                              147                3.08
  EMA Region                                                               51                3.14
  Chief Information Officer (OCIO)                                        119                3.27
  IAP Region                                                               59                3.34
  General Counsel                                                          26                3.46
  Africa Region                                                            59                3.53
  American Diversity Program                                                4                3.99
  Inspector General                                                        37                4.06
  AIDS Relief                                                               5                5.15
 Overseas Posts                                                           462                3.85
  Africa Region                                                           182                4.11
  EMA Region                                                              157                3.45
  IAP Region                                                              123                3.99
 Regional Recruiting Offices                                              435                2.82
 Grand Total                                                             2392                2.98




39
   The data in Appendix C does not include tenure calculations for temporary hires, interns, experts or other
employees not subject to the five-year rule.
40
   The average EOD to separation calculations in this table do not include currently serving staff who have not
separated yet. For some smaller offices such as Congressional Relations where a few longer-serving direct hire
employees currently work, average employee tenure would be somewhat higher if currently-serving employees were
included in the average tenure calculation. For example, in Congressional Relations, average tenure over the same
period, including currently serving employees would be 1.23 years, not 0.52 years.


Final Evaluation Report: Impacts of the Five-Year Rule                                                              49
      APPENDIX D: OIG SEMI-ANNUAL REPORTS TO CONGRESS THAT MENTION
                                 THE FYR

Semi-Annual Report to    FYR finding or reference                      Agency response
Congress (SARC)

                         "The rate of turnover of qualified staff, both in the OIG and throughout the agency, is
                         disheartening. Since 1985, the average tour of duty of all Peace Corps staff has been
                         seventeen months.”
                         The IG reported that the FYR was an           The Peace Corps Director committed to
                         impediment to completing important            consider all extension requests “solely in
                         audits and investigations and the             accordance with the criteria under the Peace
                         independence of the OIG was                   Corps Act and with respect for the purposes
                         compromised by having to seek the             of the Inspector General Act.”
                         Director’s approval on extension
                         requests.
1st SARC: October 1989   In a review of the Peace Corps’ financial     The Peace Corps Director maintained that
(the first SARC by       management system, independent auditor        “The five-year rule has worked well for
Peace Corps’ OIG)        Peat Marwick Main & Co. found that            almost 25 years and has been a key
                         high employee turnover created by the         ingredient in maintaining the uniqueness of
                         statutory FYR caused a weak internal          the United States Peace Corps…In my view,
                         control environment, deprived Peace           it is important that the Agency have the
                         Corps of the institutional memory             opportunity, where appropriate, for new
                         essential to the resolution of problems,      points of view and different experience, in
                         increased staff training costs, and created   auditing, investigating and inspecting
                         difficulty in attracting and retaining        programs, as well as in conducting them.”
                         competent, qualified personnel to operate
                         the financial management system
                         economically and efficiently.

                         “Personnel Stability. The agency needs       The Peace Corps Director acknowledged
                         to address the destabilizing effects of the  that average length of employment over the
                         high rate of attrition among staff and       previous 3 years was less than 2.5 years.
                         Volunteers.”                                 The Director authorized a study of early
                                                                      terminations of Volunteers but the agency
                         “Because of the five-year rule and normal did not address staff attrition.
                         staff attrition, since 1985 the average tour
                         of duty of all Peace Corps employees has
2nd SARC: April 1990
                         been seventeen months.”

                         “The constant disruption of agency staff
                         and the Volunteer work-force inhibits
                         effective management and programming,
                         and has become cost prohibitive.
                         Solutions must be found to stem the flow
                         of talented personnel.”




    Final Evaluation Report: Impacts of the Five-Year Rule                                                     50
                        “Training. Because of the five-year rule,     The Peace Corps Director responded that he
                        there is limited opportunity to develop       had made staff training “a priority…Our
                        critical management skills. At present        new country entry plans necessitate that we
                        training of overseas staff is marginal. Not   develop a talent pool from which new
                        all are given an opportunity to attend        overseas administrative officers can be
                        overseas staff development training at        selected.”
                        headquarters…It is essential that Peace
                        Corps devote more resources to training
                        to insure that its programs are efficiently
                        and effectively managed.”

                        “Personnel Stability. The Agency needs        In response the Peace Corps Director
                        to address the destabilizing effects of the   asserted that the FYR was generally
                        high rate of attrition among staff and        beneficial to the Peace Corps, “I believe that
                        Volunteers…We believe that the constant       the limited term excepted service
                        disruption of the continuity of Agency        appointments…enacted by Congress in
                        staff…inhibits effective management and       1965…ensures[sic] an energetic, creative,
                        programming, and has become cost              and effective environment that allows for
                        prohibitive. Solutions must be found to       the development and implementation of new
                        stem the flow of talented personnel. To       and productive ideas…In providing only
                        that end the OIG plans to commission a        limited exceptions to the five-year rule in
                        study of the effects, if any, of Peace        reviewing the issue in 1985, Congress made
                        Corps term-limited appointments on the        clear that it does not think the basic five-
                        management and staffing of the agency.”       year rule should be changed. Therefore, I
                                                                      believe that, on balance, the present system
                        The OIG did not commission this study.        of time-limited appointments, combined
                                                                      with discretion to grant extensions…is
3rd SARC: October                                                     working well and is meeting the needs of the
1990                                                                  agency.”
                        “Because of the five-year rule, we stated that there was limited opportunity to develop
                        critical management skills on the part of the American staff.”
                        The IG reported that because of the FYR it was unable to attract and retain the level of
                        staff it needed and lacked control over its personnel system: “During the last reporting
                        period, we lost 50% of our audit staff to the five-year rule...It took over a year to find
                        three qualified investigators. During this reporting period we lost all but one of our
                        experienced inspectors and had to re-staff. In his five years with the Agency the IG has
                        witnessed a 150% turnover in his staff. …The IG lacks control over the term of service
                        of OIG personnel…This issue must be visited by Congress.”
                        The IG noted that its examinations of Peace Corps operations’ had identified “deep and
                        pervasive” financial, managerial and administrative problems that had been in existence
                        for 20 years, and that the FYR contributed to the agency’s inability to resolve them:
                        “because of the attrition of both OIG audit and Agency staff, due to Peace Corps’ term-
                        limited appointments, the continuity needed to identify the root cause of these problems
                        has been lacking.”




    Final Evaluation Report: Impacts of the Five-Year Rule                                                      51
                        The IG reported that there was “…ample        The Peace Corps Director did not agree that
                        evidence that the rapid turnover of           the FYR was causing operational
                        personnel in the support functions caused     challenges:
                        by Peace Corps’ term-limited                  “I consider the five year rule to be a key
                        appointment policy creates an even            ingredient in our ability to meet the
                        greater weakness to the integrity of the      challenge of change. It has served us well in
4th SARC: April 1991    Agency’s financial management systems.        the past. In periods of growth, and generally,
                        The Agency needs a well-trained               it contributes to innovations in planning,
                        accounting and fiscal services staff with a   implementing and evaluating programs.”
                        sustained knowledge of unique Peace
                        Corps operations to operate and maintain
                        integrity in any automated environment.”
                        The IG reported a “devastating” effect of     The Peace Corps Director responded that
                        the FYR on operations of the OIG as           effects on the OIG were similar to the rest of
                        experienced staff left and delays in          the agency, and not a liability: “In short, the
                        approving extension requests resulted in      effect of the rule on IG operations is no
5th SARC: October       staff vacancies.                              different than any other office within the
1991                                                                  agency, and the general premise is that the
                                                                      rule within the context of this unique agency
                                                                      is not a liability. I fully agree with this
                                                                      position and will continue to support the
                                                                      principles set forth by the rule.”
                        The IG reported that the FYR led to           The Acting Director of Peace Corps did not
                        insufficient performance management:          specifically respond to the IG’s concerns of
                        “In the area of personnel policy, the         the FYR’s effects on performance
                        inspection found that the possibility of      management at Peace Corps.
                        separating employees after a standard 30-
                        month tour, a six-month trial period or,
                        immediately, with a thirty-day letter has
6th SARC: April 1992    discouraged Agency managers from
                        issuing standard performance appraisals
                        and attempting to improve the
                        performance of less productive workers.”
                        The IG reported that average staff tenure at that time was just 22 months “with many
                        staff having limited management experience in larger organizations” and that the agency
                        “experiences a one-third staff turnover each year.”
                        The IG reported that OIG intended to          The Peace Corps Director did not respond to
                        audit the FYR in 1993 in order to             the IG’s intention to audit the FYR.
7th SARC: October       enhance the agency’s understanding of
1992                    how the rule affected the Peace Corps,
                        but it did not conduct the audit.
                        The IG reported that OIG country program evaluations had found disruptive effects of
                        the FYR overseas, with management positions left vacant for extended periods of time,
10th SARC: April 1993   USDH personnel leaving before the end of their tours, Volunteers functioning as
                        program managers when those positions were vacant, and staff duties not being properly
                        delegated during vacancy periods.




    Final Evaluation Report: Impacts of the Five-Year Rule                                                       52
                        The IG explained how the FYR affected OIG: "The result is regular turn-over and an
                        average tenure of about three-and-one-half years. With the Peace Corps OIG
                        employment so limited in time, experienced staff must be hired since there is no real
22nd SARC: April 1999   opportunity for entry-level training. This also places an added degree of difficulty on
                        recruitment and makes 'institutional memory' an ongoing concern. The Office continues
                        to review with the Director and other senior staff issues relating to staff retention and
                        stability within the OIG."
                        The IG restated his concerns about the effects of the FYR on operations of OIG, and
                        noted that he had decided not to follow the agency's practice of granting 30 month tours,
                        but to grant all new OIG employees a single five-year appointment. "The single five-
23rd SARC: October
                        year appointment is intended to express greater mutual commitment between
1999
                        management and employees and enhance staff retention…The IG's action has been
                        supported by Peace Corps management, although the agency as a whole has not followed
                        suit."
24th SARC: April 2000   IG restated reasons for granting OIG employees 5-year appointments; no other mention.
25th SARC: October      IG restated reasons for granting OIG employees 5-year appointments; no other mention.
2000
                        The IG reported that FYR-induced turnover and vacancies were harmful to recruitment
                        and Volunteer support: "The 'five-year rule'… results in annual agency staff turnover
                        rate in excess of 25%. As of the end of March 2001, 12% of the agency's current
26th SARC: April 2001
                        positions are vacant; 67 of them are critical to Volunteer health and safety…The impact
                        of the vacancies continues to be felt in important operations, such as recruitment and
                        Volunteer support..."
                        The IG described legislation, Section 6 of H.R. 4060, that would establish a more
                        independent IG at Peace Corps by moving the IG appointment from the Director of the
32nd SARC: April 2004
                        Peace Corps to the President, and by not subjecting OIG staff to the Peace Corps'
                        personnel system, i.e. the FYR.
                        The IG again reported insufficient performance management and its harmful effects:
                        "Performance Management and Disciplinary Actions. A broad management challenge
                        that exists within the agency involves the reluctance of management to undertake
39th SARC: October      disciplinary actions against employees where there is evidence of unsatisfactory
2007                    performance and/or inappropriate conduct....In addition, failures on the part of Peace
                        Corps posts to follow-up appropriately with employees who had significant performance
                        deficiencies has led to significant losses and mismanagement of agency resources."
                        The IG reported that the Agency had data challenges: "Data is often not centralized and
                        accessible to the staff that needs the information to perform their jobs. For example, the
                        agency does not have timely access to employee turnover and tenure data and could not
                        produce the data needed to determine the average length of time it takes to fill vacant
                        positions. Gathering such data often requires access to numerous systems and databases
45th SARC: October
                        and staff must manually assemble it from multiple sources to develop needed reports and
2010
                        information. This manual process is not efficient and can lead to errors unless staff
                        undertakes time-consuming data validation efforts. Furthermore, without timely access
                        to relevant data, the agency cannot easily obtain the data necessary for making informed
                        management decisions and assessing whether the agency is meeting its performance
                        goals.”
                        The IG cited Information Technology Management at Peace Corps as a management
47th SARC: October      challenge, caused in part by "high personnel turnover in key technical areas, resulting at
2011                    least in part, from term limit assignments imposed by law and the availability of
                        qualified resources."



    Final Evaluation Report: Impacts of the Five-Year Rule                                                    53
      APPENDIX E: AGENCY'S RESPONSE TO THE PRELIMINARY REPORT




Final Evaluation Report: Impacts of the Five-Year Rule          54
Final Evaluation Report: Impacts of the Five-Year Rule   55
Final Evaluation Report: Impacts of the Five-Year Rule   56
Final Evaluation Report: Impacts of the Five-Year Rule   57
                              APPENDIX F: OIG COMMENTS


Management concurred with all 5 recommendations. In its response, management described
actions it intends to take to further analyze and address the issues that prompted each of our
recommendations. Management’s corrective actions are ongoing and as a result none of the 5
recommendations can be closed at this time. We wish to note that when we close
recommendations, we are not certifying that the agency has taken these actions, nor that we have
reviewed their effect. Certifying compliance and verifying effectiveness are management’s
responsibilities. However, when we feel it is warranted, we may conduct a follow-up review to
confirm that action has been taken and to evaluate the impact.

The recommendations will remain open until we receive sufficient evidence that management
has taken appropriate corrective actions. Such evidence must include the following:

   •   Recommendations 1, 2 and 3. Please provide OIG with a specific date by which we
       should expect to receive the consultants’ report and suggested recommendations, along
       with management’s plan and timeline for implementing the agency’s response to
       recommendations 1, 2 and 3. Please ensure that the documents provided to OIG show the
       Director’s consideration of the suggested recommendations in the consultants’ report, and
       which recommendation(s) the Director has approved for further action.

   •   Recommendation 4. Please provide OIG with a specific date by which we should expect
       to receive documentation related to improvements in the agency’s approach to
       performance management. Please ensure that the documents provided to OIG show
       management’s consideration of ways to improve performance management, and which
       approach(es) to improving performance management have been approved for further
       action.

   •   Recommendation 5. Please provide OIG with a specific date by which we should
       expect to receive documentation related to management’s plan to put in place more
       robust processes and systems to gather and analyze data on the causes of unwanted, early
       employee resignations. Please ensure that the documents provided to OIG show
       management’s plan for obtaining and analyzing information on the reasons why
       employees resign early, and for using that information to develop solutions that may curb
       the pace at which employees resign early.




Final Evaluation Report: Impacts of the Five-Year Rule                                             58
       APPENDIX G: EVALUATION COMPLETION AND OIG CONTACT

EVALUATION                      This evaluation was conducted under the direction of Jim
COMPLETION                      O’Keefe, Assistant Inspector General for Evaluations, by
                                Senior Evaluator Jeremy Black. Additional contributions were
                                made by Senior Evaluators April Miller and Heather Robinson.




                                Jim O’Keefe

                                Assistant Inspector General for Evaluations




                                If you wish to comment on the quality or usefulness of this
OIG CONTACT
                                report to help us improve our products, please e-mail Jim
                                O’Keefe, Assistant Inspector General for Evaluations and
                                Inspections, at jokeefe@peacecorps.gov, or call (202) 692-
                                2904.




Final Evaluation Report: Impacts of the Five-Year Rule                                         59
Help Promote the Integrity, Efficiency, and
     Effectiveness of the Peace Corps
Anyone knowing of wasteful practices, abuse, mismanagement,
fraud, or unlawful activity involving Peace Corps programs or
personnel should call or write the Office of Inspector General.
    Reports or complaints can also be made anonymously.




                      Contact OIG


                                Hotline:
       U.S./International:       202.692.2915
       Toll-Free (U.S. only):    800.233.5874

       Email:                    OIG@peacecorps.gov
       Web Form:                 www.peacecorps.gov/OIG/ContactUs

       Mail:                     Peace Corps Office of Inspector General
                                 P.O. Box 57129
                                 Washington, D.C. 20037-7129


                      Main Office: 202.692.2900
